<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2022 BUDGET</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                THE PRESIDENT'S FISCAL YEAR 2022 BUDGET

=======================================================================

                                 HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

             HEARING HELD IN WASHINGTON, D.C., JUNE 9, 2021
                               __________

                            Serial No. 117-3
                               __________

           Printed for the use of the Committee on the Budget
           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


                       Available on the Internet:
                            www.govinfo.gov                            
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-455                     WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
HAKEEM S. JEFFRIES, New York         JASON SMITH, Missouri,
BRIAN HIGGINS, New York                Ranking Member
BRENDAN F. BOYLE, Pennsylvania,      TRENT KELLY, Mississippi
  Vice Chairman                      TOM McCLINTOCK, California
LLOYD DOGGETT, Texas                 GLENN GROTHMAN, Wisconsin
DAVID E. PRICE, North Carolina       LLOYD SMUCKER, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       CHRIS JACOBS, New York
DANIEL T. KILDEE, Michigan           MICHAEL BURGESS, Texas
JOSEPH D. MORELLE, New York          BUDDY CARTER, Georgia
STEVEN HORSFORD, Nevada              BEN CLINE, Virginia
BARBARA LEE, California              LAUREN BOEBERT, Colorado
JUDY CHU, California                 BYRON DONALDS, Florida
STACEY E. PLASKETT, Virgin Islands   RANDY FEENSTRA, Iowa
JENNIFER WEXTON, Virginia            BOB GOOD, Virginia
ROBERT C. ``BOBBY'' SCOTT, Virginia  ASHLEY HINSON, Iowa
SHEILA JACKSON LEE, Texas            JAY OBERNOLTE, California
JIM COOPER, Tennessee
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
SETH MOULTON, Massachusetts
PRAMILA JAYAPAL, Washington

                           Professional Staff

                     Diana Meredith, Staff Director
                  Mark Roman, Minority Staff Director
                                
                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., June 9, 2021...................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
    Hon. Jason Smith, Ranking Member, Committee on the Budget....     6
        Prepared statement of....................................     8
        Letter submitted for the record..........................    25
    Shalanda Young, Acting Director and Deputy Director, Office 
      of Management and Budget...................................    12
        Prepared statement of....................................    14
    Hon. Michael Burgess submitted a letter for the record.......    47
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................    82
    Questions submitted for the record...........................    87
    Answers submitted for the record.............................    93

 
                THE PRESIDENT'S FISCAL YEAR 2022 BUDGET

                              ----------                              


                        WEDNESDAY, JUNE 9, 2021

                           House of Representatives
                                    Committee on the Budget
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 11:06 a.m., in 
room 210 Cannon House Office Building and via Zoom, Hon. John 
A. Yarmuth [Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Jeffries, Higgins, Boyle, 
Doggett, Price, Schakowsky, Kildee, Morelle, Horsford, Lee, 
Chu, Plaskett, Wexton, Scott, Jackson Lee, Cooper, Moulton, 
Jayapal; Smith, Kelly, Grothman, Smucker, Jacobs, Burgess, 
Carter, Cline, Boebert, Donalds, Feenstra, Good, Hinson, and 
Obernolte.
    Chairman Yarmuth. This hearing will come to order. Good 
morning and welcome to the Budget Committee's hearing on the 
President's Fiscal Year 2022 Budget. We are holding this hybrid 
hearing in compliance with the regulations for committee 
proceedings pursuant to House Resolution 965 carried over to 
the 117th Congress via House Resolution 8. Members and 
witnesses may participate remotely or in person.
    I would like to remind Members that we have established an 
email inbox for submitting documents before and during 
committee proceedings and we have distributed that email 
address to your staff.
    For individuals who are participating remotely, consistent 
with regulations, the Chair or staff designated by the Chair 
may mute a participant's microphone when the participant is not 
under recognition for the purpose of eliminating inadvertent 
background noise. Members participating remotely are 
responsible for unmuting themselves when they seek recognition. 
We are not permitted to unmute Members unless they explicitly 
request assistance. If I notice that you have not unmuted 
yourself, I will ask if you would like staff to unmute you. If 
you indicate approval by nodding, staff will unmute your 
microphone. They will not unmute your microphone under any 
other conditions. Members participating remotely must have 
their cameras on and be visible on screen in order to be 
recognized. Members may not participate in more than one 
committee proceeding simultaneously.
    Finally, to maintain safety in light of the Attending 
Physician's new guidance and the Speaker's announcement on 
January 4, Members, staff, and all others physically present in 
the hearing room must wear a mask and are required to keep 
their masks on when seeking recognition. After an individual 
has been recognized, the individual may remove their mask while 
speaking. Each individual must reapply their mask at the 
conclusion of their remarks. For those Members not wanting to 
wear a mask, the House rules provide a way to participate 
remotely from your office without being physically present in 
the hearing room.
    Now, I will introduce our witness. This morning, we will be 
hearing from the Honorable Shalanda Young, Acting Director of 
the Office of Management and Budget. We welcome her to the 
House Budget Committee. I now yield myself five minutes for an 
opening statement.
    I would like to take another moment to welcome the 
Honorable Shalanda Young to our witness table. OMB is well-
served to have you at the helm this budget season, particularly 
given your more than 14 years of experience with the House 
Appropriations Committee. Thank you for being with us today and 
in person.
    With the help of some new safety protocols and guidance 
from the Office of the Attending Physician, it is good to be 
back in the hearing room today. We are finally and thankfully 
rounding the corner of this public health crisis.
    Vaccination rates are up, coronavirus cases are down. Job 
growth is up, and the unemployment rate is down to its lowest 
point since before the pandemic. Rescue checks have 
significantly reduced hardships facing American families, with 
sharp declines in food insecurity and financial instability. 
The American Rescue Plan has helped save communities, 
delivering the resources necessary to get shots into arms, 
workers back in jobs, and to provide lifelines to state and 
local governments, small businesses, and families.
    It was the plan our nation needed, and it was a plan this 
Committee was proud to help deliver. But this is not the time 
to stop and pat ourselves on the back. Our country is not where 
we need it to be. There is much more work to do.
    That is why President Biden has proposed a transformative 
budget that will ensure we emerge from these past 15 months of 
crisis stronger and better prepared for the future than ever. 
With critical investments in job creation, clean energy, 
infrastructure, education, childcare, public health, and more, 
the President's budget for 2022 lays out a visionary plan to 
build a better and more secure future for our nation.
    For too long, self-inflicted austerity has been mistaken 
for fiscal responsibility to the detriment of American families 
and our nation's economy. The Biden budget ends this era of 
chronic underfunding and disinvestment in America's potential, 
and addresses the longstanding deficits in our communities that 
have been exposed and exacerbated by the pandemic.
    And I might add, the thing that most impresses me about 
this budget is it represents a change in thinking that is long 
overdue. For decades and decades, the first question has always 
been, at the federal level, what can we afford to do? President 
Biden's budget asks the questions in a different order. It asks 
first, what do we need to do to serve the American people? And 
then, how do we resource those needs? I think that is an 
important change in mentality.
    The budget includes President Biden's American Jobs Plan, 
proposing $2.2 trillion in historic investments over 10 years 
to fix and modernize our failing infrastructure, create good-
paying jobs, and revitalize U.S. manufacturing so we can lead 
the global marketplace. The budget ends decades of 
underinvestment in transportation infrastructure and also makes 
transformative investments to address climate change, renew the 
electric grid, and spur energy-related economic development.
    Together, the plan's investments will increase energy 
resilience and security, lower energy costs for Americans, 
improve air quality, create good-paying jobs, and strengthen 
U.S. competitiveness, all while putting our country on the 
pathway to 100 percent carbon-free electricity by 2035.
    The budget also includes the American Families Plan and 
proposes long-overdue investments in affordable housing, 
infrastructure, public health, and childcare infrastructure, 
expanding opportunities, and creating a fairer, more modern 
economy in the wake of the pandemic.
    It extends key tax cuts in the American Rescue Plan that 
benefit lower-and middle-income workers and families, like the 
Child Tax Credit that helped cut child poverty in half. It 
builds on the antipoverty and food initiatives in the American 
Rescue Plan, investing $45 billion over 10 years to deliver 
nutrition security to vulnerable families. To ensure parents, 
particularly mothers, can safely return to the work force, 
provide for their families, and help power our recovery, the 
budget invests $225 billion over 10 years to make childcare 
more affordable and accessible. Then it provides free universal 
preschool, which is an enormous benefit to working families. 
And because a more educated work force builds a stronger 
economy, it provides two years of free college education.
    Investing in the American people has always been a good 
bet, but with interest rates this low and the need so high, 
right now it is a sure thing. For too long, our economy has not 
worked for those working the hardest to get by. Underlying 
inequities and widening income inequality, exacerbated by the 
pandemic-driven recession, continue to jeopardize the financial 
security of working Americans. In the United States, the 
wealthiest nation on earth, this is neither acceptable nor 
inevitable.
    But by pairing the American Family and American Jobs Plans 
with reforms to ensure that big corporations and the wealthiest 
Americans pay their fair share, we can make these powerful, 
pro-growth investments and set our nation on a fiscally 
responsible path.
    President Biden has put forward a visionary budget that 
will transform our country and create a far better future for 
all American families. Acting Director Young, I look forward to 
working with you and the rest of the Administration to advance 
this budget and to answer the President's call to build a 
stronger country by putting the needs, goals, ingenuity, and 
strength of the American people front and center.
    Thank you. And I now yield to the Ranking Member for his 
opening statement.
    [The prepared statement of Chairman Yarmuth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Thank you, Mr. Chairman. Thank you, Director 
Young, for participating in today's hearing. As President Biden 
has said repeatedly, don't tell me what you value, show me your 
budget, and I will tell you what you value. When President 
Biden released his budget, he sent a clear message that his 
Administration values Washington control over America's working 
class. Under President Biden's budget, government spending 
reaches historic highs and raises our national debt to 
unsustainable levels. It creates the highest sustained tax 
burden in American history, and nearly doubles tax collections 
over the next 10 years, while breaking the President's pledge 
not to raise taxes on American families earning under $400,000.
    His budget gives Washington the greatest and most coercive 
command and control over Americans' lives and livelihoods ever 
witnessed in modern history, while abandoning government's core 
constitutional function of providing for a national defense. In 
a budget that gives an average 16 percent raise to every non-
defense agency next year, the President struggles to find one 
new dollar for Homeland Security, when we have a crisis at our 
southern border.
    Within 10 years under the budget proposal, America will pay 
more to settle the interest on our national debt than it costs 
today to take care of our seniors on Medicare. It will cost 
more than our entire national defense and nearly 10 times more 
than what we will spend on veterans' healthcare next year. The 
misplaced priorities of this budget are not the only 
frightening part. It is how President Biden says he wants to 
pay for some of it. One of the ways he hopes to finance some of 
his massive government spending is to permanently grow the IRS 
$80 billion. A bureaucracy which has a history of targeting 
conservative political groups.
    Given that history, the American people are right to be 
worried. Because instead of finding new ways to grow America's 
economy and create opportunity, President Biden is bent on 
finding new ways to tax America while countries like China 
outcompete us on the global stage. If we want to strengthen 
America, we need to start by focusing on the right economic 
conditions that give workers a chance to succeed instead of 
settling for an agenda that the President's own budget admits 
will underperform.
    Based on the projections outlined in this budget, the 
President's spending and tax plan would lead to the worst 
economic growth of any decade since the Great Depression. What 
is worse, it completely ignores the real cost of government 
spending. The high prices Americans are facing at the pump and 
in the checkout lines due to rising inflation. Here are some 
facts that have gone underreported recently.
    Since President Biden took the oath of office, monthly 
inflation has quadrupled. Core inflation in April increased at 
the highest level in nearly four decades. And yet, still the 
President's budget assumes $69 trillion in new spending and 
will not significantly fuel this rise in new spending, which 
will significantly fuel this rise in the cost of living that 
disproportionately harms the working class.
    President Biden needs to level with the American people. If 
we continue down this path, by 2031, a quarter of our GDP will 
be government spending and Americans will be on the hook for a 
whopping $39 trillion in debt. We need a budget that bets on 
the working class and supports their families. A budget that 
prioritizes constitutional responsibilities like national 
security, fosters better job growth, rising wages, and economic 
security, and gives our children a chance to inherit the 
American Dream, not a list of broken promises.
    I am not sure if there is such a thing as a perfect budget 
in Washington, but it is clear that the budget President Biden 
is proposing falls far short of the mark. And, frankly, America 
can do better than the President's disappointing vision for the 
future. I yield back, Mr. Chairman.
    [The prepared statement of Jason Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I thank the Ranking Member for his 
opening statement. In the interest of time, I ask that any 
other Members who wish to make a statement, submit their 
written statements for the record to the email box we 
established for receiving documents before and during Committee 
proceedings. We have distributed that email address to your 
staff. I will hold the record open until the end of the day to 
accommodate those Members who may not yet have prepared written 
statements.
    Now, once again, I would like to thank Ms. Young for being 
here this morning. The Committee has received her written 
statement and it will be made part of the formal hearing 
record. You have five minutes to give your oral remarks and you 
may begin when you are ready.

    STATEMENT OF SHALANDA YOUNG, ACTING DIRECTOR AND DEPUTY 
           DIRECTOR, OFFICE OF MANAGEMENT AND BUDGET

    Ms. Young. Thank you, Mr. Chairman, Ranking Member Smith, 
the other Members of the Budget Committee. This is a welcome 
home for me. I have spent a long time in these halls. I also 
want to thank the staff on both sides of the aisle. I know the 
work it takes. You all were my colleagues. So, I am uniquely 
aware of the work it takes to put this on. So, thank you to the 
Members and to the staff.
    We released this budget at a moment when our country is 
emerging from one of the most challenging times in our history. 
At least 63 percent of American adults have now received one 
vaccine shot. The economy has added two million jobs since the 
President took office. The unemployment rate has dropped to 5.8 
percent, the lowest it has been since the start of this 
pandemic. A very encouraging sign is the decline we see in the 
long-term unemployed of 431,000 last month, as well as a 
decline in those seeking initial claims of unemployment by 
about half of what they were in January. And yet, we also know 
that it is not enough to simply go back to where we were before 
the pandemic. Instead, we must seize this moment to reimagine 
and rebuild a new American economy that invests in the middle 
class and those trying to break into the middle class.
    The President's Fiscal Year 2022 Budget details his agenda 
for this year to help grow the economy, create good paying jobs 
empowering equitable economic recovery. It includes the two 
historic plans the President has put forth, the American Jobs 
Plan and the American Families Plan, and reinvests in 
education, research, and public health, and other foundations 
of our country's strength through the discretionary request. 
And it does all of this while proposing tax reforms that will 
put our country's long-run fiscal health on a legitimate path 
and lay the foundation for shared prosperity in this country.
    The budget starts with the American Jobs Plan. A once-in-a-
generation investment in America that would put millions of 
people to work rebuilding our country: fixing highways, 
rebuilding bridges, upgrading our transit systems, replacing 
all lead pipes and service lines in our drinking water systems, 
investing in the infrastructure of our care economy, and 
creating new and better jobs for caregiving workers, and more.
    The budget also includes the American Families Plan. A 
historic investment to help families cover the basic expenses 
that so many struggle with now, lower health insurance 
premiums, and continue the historic reductions in child poverty 
that we began in the American Rescue Plan.
    Alongside these investments, the budget also reiterates the 
President's strong call to Congress during his joint session to 
make progress on healthcare by reducing the cost of 
prescription drugs and expanding and improving health coverage. 
Moreover, the budget details a robust set of discretionary 
proposals to help reinvest the foundations of our strength and 
to begin reversing a decade of chronic underinvestment in 
priorities like public health, public education, basic science, 
and clean energy. In total, the budget's discretionary 
investments would restore non-defense appropriations to its 
historical average share of the economy.
    Importantly, the budget makes all of these investments in a 
way that is responsive to both near-and medium-term economic 
landscape and longer-term fiscal outlook.
    In the near-term, the decades-long, global trend of 
declining interest rates give us the fiscal space to make these 
necessary upfront investments. Under this budget's policies, 
the real cost of federal debt payments will remain below the 
historical average through the coming decade, even as the 
budget assumes the interest rates will rise from their current 
lows, consistent with private sector forecasts.
    Over the long run, when we face larger fiscal challenges 
and more uncertainty about interest rates, the budget will 
reduce the deficit and improve our nation's finances. That is 
because its front-loaded investments are more than paid for 
through permanent tax reforms and will ensure corporations and 
the wealthiest Americans pay their fair share. The budget 
policies reduce annual deficits beginning in 2030 and reduce 
deficits by over $2 trillion in the subsequent decade, while 
the American Jobs Plan and the American Families Plan are fully 
offset within the next 15 years.
    As a whole, the President's budget will improve our 
nation's long-term finances, while making the growth enhancing 
investments we need right now. Thank you for the opportunity to 
appear here today, and I look forward to taking your questions.
    [The prepared statement of Shalanda Young follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you very much for your statement. 
We will now begin our question-and-answer session. Acting 
Director Young will be available to answer questions in person 
until 2 p.m. today. She has another appointment at the 
Appropriations Committee. With that in mind, we ask Members to 
keep your questions to their allotted time. As a reminder, 
Members can submit written questions to be answered later in 
writing. Those questions and responses will be made part of the 
formal hearing record. Any Members who wish to submit questions 
for the record, may do so by sending them to the clerk 
electronically within seven days. I now recognize the gentleman 
from New York, Mr. Jeffries, for five minutes.
    Mr. Jeffries. Thank you so much, Mr. Chairman, for your 
continued leadership and for convening this very important 
hearing. And Acting Director Young, I am thankful for your 
presence and for your leadership, for your work on behalf of 
the nation. Welcome back to the House of Representatives. It is 
great to see you.
    As you testified, the American Jobs Plan and President 
Biden's budget would put millions of Americans back to work, in 
part, by investing in our crumbling bridges, roads, tunnels, 
airports, mass transit system, water and sewage system, and 
also, by investing in the caring economy. To begin with, is it 
the case that in America we last meaningfully invested at a 
national level in our infrastructure in the 1950's connected 
with President Eisenhower's Interstate Highway System?
    Ms. Young. You are absolutely right, Congressman, and we 
believe now is the time. Rather than constant infrastructure 
weeks, we would like to see a real investment to help grow the 
economy.
    Mr. Jeffries. Interesting, because it seems like instead of 
an infrastructure week or an infrastructure month or an 
infrastructure year, or decade, this is sort of an 
infrastructure century since it has been a long time since we 
have meaningfully invested. Is it possible to have a first-
class economy for us to win the century while having a third-
rate infrastructure or a crumbling infrastructure?
    Ms. Young. Congressman, we talk a lot about competing with 
China. This is just as important to ensure that we remain the 
world leader, that we have a strong infrastructure, a strong 
economy, just as much as it does where we land on the defense 
budget.
    Mr. Jeffries. And China is investing an extraordinary 
amount in their infrastructure, both in Mainland China as well 
as across the world. Is that correct?
    Ms. Young. Absolutely. They are around the world investing 
in other countries' infrastructure as well as their own.
    Mr. Jeffries. Now, in January, President Biden inherited a 
crumbling economy connected, of course, to the COVID-19 
pandemic, as well as mismanagement from the prior 
Administration. And that had more than 10 million Americans out 
of work. I think as you mentioned, the economy--well, the 
unemployment rate has already dropped to 5.8 percent under 
President Biden's leadership. And is that a sort of--does that 
match a pre-pandemic low or how does that measure up during the 
duration of this pandemic?
    Ms. Young. So, we are at the levels we were at the start of 
the pandemic. We still have a way to go. But let me--we touched 
on this a little but let me be clear. We think we are on the 
right path to economic recovery from COVID. The American Rescue 
Plan did what it set out to do. Vaccination rates we could not 
have envisioned better. But what the Jobs Plan and Families 
Plan insists is that we do better than we did before the 
pandemic and create a more equitable economic system in this 
country.
    Mr. Jeffries. And that is entirely consistent with what 
then-candidate Biden said he was going to do, which is build 
back better. He made a campaign promise and now he is working 
to fulfill that promise to ensure that we emerge even stronger 
than we were prior to the pandemic. How many more jobs would 
the American Jobs Plan as outlined in the budget create?
    Ms. Young. Sir, it not only would create more jobs. It 
would ensure that those who are working that may not have a 
college degree can have access to good paying union jobs. So, 
it is about the quality of jobs. We want to return to pre-
pandemic low unemployment rates, but we want to make sure we 
see appropriate wage growth. And for those who are at any point 
in an education system, that they have access to be able to 
feed their families.
    Mr. Jeffries. And last, I think the budget states that 
approximately 40 percent of energy and climate infrastructure 
investments would go toward traditionally disadvantaged 
communities. I assume that means both inner city communities 
that has been left behind, as well as rural coal mining towns, 
small town America, parts of Appalachia. Can you tell us what 
the rationale was for making sure that these type of 
communities are identified for investment?
    Ms. Young. Congressman, you won't be surprised. This is 
beyond the budget. The President has put forth an executive 
order that calls on the government to look through all its 
lenses as we implement programs to make sure we don't leave any 
communities behind. We have huge investments in the 
discretionary requests to make sure, as you put, coal 
communities, as those jobs tend to decline. We want to make 
sure we don't leave anyone behind. And this budget absolutely 
speaks to that. And the actions of the EO speak to that.
    Mr. Jeffries. Thank you so much for your testimony.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Missouri, the Ranking Member Mr. 
Smith, for 10 minutes.
    Mr. Smith. Thank you, Mr. Chairman. Given China's 
negligence regarding COVID-19, America's real GDP dropped by $2 
trillion in the first half of 2020. The unemployment rate 
skyrocketed from 3 and a 1/2 percent to 14.7 percent in two 
months. Twenty-one million jobs were lost from February to 
April 2020. And more than 600,000 Americans have tragically 
died. Given the detrimental economic effects of COVID-19, what 
was noticeably absent from your budget were any plans to hold 
China accountable for its role in spreading COVID-19. What is 
the Administration's plan to seek retribution and recoup 
American taxpayer dollars?
    Ms. Young. Thank you, Congressman. As you probably know, 
the President has asked the intelligence community to undertake 
a 90-day review.
    Mr. Smith. Perfect. We will be watching those 90 days to 
make sure that we are going to be compensated for the damage 
that China has put onto the United States.
    Over the past few weeks, it has become increasingly evident 
COVID-19 originated from a lab in Wuhan, China. What concerns 
me, as a Republican leader on the Budget Committee, is that Dr. 
Anthony Fauci's recently publicized emails show a clear link 
between American taxpayer dollars and labs that outsource 
research outside of the United States. Acting Director Young, 
what are you doing to get to the bottom of the clear link 
between federal funding and the Wuhan lab?
    Ms. Young. Congressman, I will point you back to the 
President's tasking of the intelligence community. That is the 
appropriate place to task to look at the source of COVID and 
any relation to the Wuhan lab.
    Mr. Smith. So, let me ask you this. Can you commit that 
American dollars will never be used to fund such research going 
forward from this budget?
    Ms. Young. Congressman, I started my career at NIH. I would 
never, you know, make that commitment as someone who believes 
we need to be led by science. And we certainly need to wait 
until this review before we jump to conclusions.
    Mr. Smith. All right. This budget proposes an additional 
$80 billion for the IRS, which will be used to more than double 
its number of agents. It concerns me that this Administration 
found $80 billion more for the IRS to target Americans, but not 
one dollar more for border security. In the past, the IRS has 
repeatedly targeted conservative groups and been used by 
administrations for political retribution. What will you do to 
protect Americans so that IRS will not target individuals based 
on their political views, their social media post, or how they 
vote?
    Ms. Young. Well, Congressman, the President has the highest 
standards for all federal workers. You have heard him speak 
about that. But I point out the investment in the IRS is 
intended to collect about $1 trillion that we believe those are 
not--the tax gap between what is owed and what people are 
actually paying with these current tax systems. So, we think 
that is appropriate investment to ensure the federal government 
is collecting the tax revenue that the laws require.
    Mr. Smith. Do you know if there are any parameters within 
this proposal to make sure that it's not bias according to 
political affiliations?
    Ms. Young. That would be a underlying assumption that we 
don't hold that there is a bias. But, absolutely, if those 
things come forth, you would have our cooperation in looking 
into those matters. We expect the highest caliber from all of 
our federal agencies.
    Mr. Smith. It is a huge concern to me just with the report 
in the last 24 hours that this Administration in this budget is 
proposing the highest tax increase in the history of the United 
States, but so happens some of the most wealthy Americans' tax 
records were just so how leaked that showed that they paid very 
little in the news. So, that shows that there is some kind of a 
leak within the IRS. So, I hate the retribution of trying to 
push policies that at least it looks like maybe that is 
happening in the IRS.
    Let's go to another issue. The budget requests $26 million 
to reduce maternal mortality and eliminate race-based 
disparities and outcomes among ``birthing people.'' This is a 
shift from recent budgets, which referred to maternal health 
issues as women's issues. I have never heard the term before. 
Can you explain what it means?
    Ms. Young. Absolutely. There are certain people who do not 
have gender identities that apply to female or male. So, we 
think our language needs to be more inclusive in how we deal 
with complex issues. I think the underlying issues most 
important that your colleagues, Lauren Underwood, and others, 
are working on is to try to ensure that those of color who are 
giving birth leave the hospital alive. And that is the issue, 
rather than the verbiage. The verbiage matters, but the 
underlying issue is extremely important. And a lot of your 
colleagues are working hard on this because all of those giving 
birth should have access to the same quality healthcare.
    Mr. Smith. So, is the Administration's official policy to 
replace the term, woman, with birthing people?
    Ms. Young. I think our official policy is to make sure when 
people get service from their government, that they feel 
included. And we are trying to use inclusive language.
    Mr. Smith. OK. Interesting. We are currently facing 
historic levels of migration caused by this Administration's 
irresponsible border and immigration policies. The number of 
migrants illegally crossing the U.S.-Mexico border this Fiscal 
Year is already the most since 2006, with four months left to 
go. Since January, more people have illegally crossed the 
southern border than the entire population of Kansas City, 
Missouri in my home state. The only folks benefiting from the 
Biden border crisis are drug cartels, human traffickers, and 
large corporations that benefit from cheap labor, all at the 
expense of hard-working Americans. Despite all this, the 
Administration proposes flatlining the Department of Homeland 
Security's budget, the agency charged with keeping Americans 
safe. Specifically, it proposes to freeze the ICE budget and 
reduce the Customs and Border Patrol budget. Even worse, the 
CBP Procurement Construction and Improvements Account is cut by 
almost 50 percent. What is the justification for flatlining the 
DHS budget when every other agency receives a 16 and a 1/2 
percent increase in funding on average? Not to mention the 
billions of dollars in so-called COVID relief already sitting 
in their accounts. Why was this critical department singled 
out?
    Ms. Young. Congressman, what I would call the DHS budget is 
a realignment. You may not agree, but we have a proposal to 
cancel the border wall funding. And that funding is redirected 
to what we consider a better use in where we get real border 
security. A focus on technology, land ports of entry. Those 
have been bipartisan interests. Migrant services, $203 million. 
Office of Immigration review, which is in DOJ. The Office of 
Refugee Resettlement, which deals with children at the border 
and resettlement. So, those are beyond the Department of 
Homeland Security. So, you see those increases in DOJ and HHS.
    Mr. Smith. With that realignment, do you see the 
Administration coming back and asking for a supplemental with 
the influx of money being spent along the southern border?
    Ms. Young. So, I will point out that we continue to monitor 
the border. Typical migration patterns would tell you, you see 
increases over the spring and summer. It depends on the 
weather. This budget, remember starts October 1. So, we are 
asking for increases in OR for next year. We think that is an 
appropriate level. But what you are speaking to we certainly 
are managing. But this budget would not speak to any patterns 
that we might see over the summer. But we believe we are 
managing it with the resources we have.
    Mr. Smith. On April 27, Ranking Member John Katko of the 
Homeland Security Committee and I wrote a letter to you 
regarding the border crisis, which is costing unknown amounts 
of taxpayer dollars. We have not received a response. Mr. 
Chairman, I ask unanimous consent to submit the letter for the 
record?
    Chairman Yarmuth. Without objection, so ordered.
    [Letter submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Many of these costs were not budgeted for. And 
reports indicate that DHS and HHS needed to reprogram billions 
from operating budgets to address the crisis. Does the 
Administration--so, it is up to what the border--what they 
decide at the border of whether they will do a supplemental? Is 
that correct?
    Ms. Young. Sir, you know reprogramming and transfer 
authorities have been debated a long time. You know, Democrats 
in the last four years probably would have liked to see those 
rein in. Those are tools we are using just like the last 
Administration used to manage situations that may have been 
unknown at the beginning of the fiscal year. So, we are using 
them just like prior Administrations have. And we are working 
on your request. It is a complicated, detailed request.
    Mr. Smith. I appreciate it.
    Ms. Young. I will point out we also responded to your 
apportionment request. And we are trying to be more transparent 
with apportionments.
    Mr. Smith. We got that yesterday. I appreciate that.
    Ms. Young. Have you? OK.
    Mr. Smith. I want to ask one quick question before time 
runs out. In your proposal, I saw that you set aside $40 
million to states that change their gun law regulations to 
incentivize more restrictions. Can you discuss that a little 
bit more?
    Ms. Young. Yes, we have a $5 billion in total gun violence 
prevention initiative. We think that is an appropriate thing to 
do. Also, $50 million in gun violence prevention research. So, 
you do see a focus from this Administration to make sure that 
we get at issues, you know, I am proud to say that even with 
the last Administration, we were able to get gun violence 
research going again. So, you absolutely do see a forward focus 
to make sure we get our hands around. I think what we can 
clearly see is a problem with mass shootings and other things 
that can't go on in this country.
    Mr. Smith. Thank you. I will say Director Young, not Acting 
Director.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from New York, Mr. Higgins, for five 
minutes.
    Mr. Higgins. Thank you, Mr. Chairman, Director Young. I 
think it is wise to appoint a House budget insider to the 
director of Office of Management and Budget. And we are pleased 
to have you here today.
    In the 1950's, corporate income taxes represented about 35 
percent of the total federal budget. In the 1960's, it was 21 
percent. In the 1980's, it was 10 percent. Today, it is about 
6.6 percent. Fifty-five American corporations paid no federal 
income taxes in 2020, despite reporting $40.5 billion in pre-
tax income. Duke Energy, FedEx, Nike. The issue is not, you 
know, whether or not we should have it paid for. Corporations 
just need to pay their fair share. You know, people will try to 
equate the amount of taxes that corporations pay relative to 
economic growth. The last time this economy grew by more than 6 
percent was in the 1950's, when 33 percent of the federal 
budget was corporate taxes.
    I just want to get to infrastructure. The American Society 
of Civil Engineers says that we need $4.6 trillion by 2020, 
just to bring America's infrastructure to a state of good 
repair. The President proposed $2.3 trillion. And the President 
was just engaged with a Republican representative from the 
Senate to talk about lowering that further, which I think was a 
complete waste of time. The reality is that the tax cuts that 
our colleagues on the other side embraced didn't do anything to 
grow the economy. Didn't do anything to give us the resources 
necessary to compete effectively with China.
    According to the Business Roundtable, for every dollar that 
you spend in infrastructure, you grow the economy by $3.70. 
Standard and Poor's, for every dollar that you spend in 
infrastructure, you grow the economy by $2 and 70 percent. 
University of Maryland, for every dollar that you spend in 
infrastructure, you grow the economy by more than $3.
    The fact of the matter is, yes, corporations should be 
paying their fair share. But we already have a pay-for for 
infrastructure, and that is future economic growth by the 
millions of jobs that will be created, and by every academic 
and economic study that shows that infrastructure pays for 
itself. That if you can get money cheaply and you can grow the 
economy with new jobs and a more efficient operation of your 
infrastructure, that is a wise investment. Your thoughts on the 
infrastructure proposal?
    Ms. Young. Congressman, I could not have said it better. 
The tax proposal certainly does offset the spending we have in 
the budget. You know, through budgetary rules, we do have to 
assume offsets in that way. But you are absolutely right. We 
expect, you know, Ranking Member Smith pointed out our economic 
growth figures. Those were done in February. We expect a much 
larger growth pattern than we see even in this budget, which 
does show that we have fully offset policies. So, I couldn't 
agree with you more. But also, I think the tax policies even if 
you paid for these investments through infrastructure, the tax 
policies we have here should be passed on of their volition 
because as you put it, the corporate tax rate is what they are 
paying into the system versus what everyday Americans are. 
There is an inherent unfairness. So, these tax reforms should 
be seen as the right policy as well as helping to pay for--or 
fully paying for these policies.
    Mr. Higgins. Thank you very much. Just let me make another 
point about the amount of public dollars that were invested 
into the development of a vaccine. It was about $11 billion by 
the federal government. The messenger RNA is the stuff that 
converts DNA to proteins, and proteins are the vaccine's active 
ingredient. Moderna's stock pre-pandemic, who developed one of 
the vaccines with government paid for--taxpayer paid for 
research, their stock was at $21 a share pre-pandemic. Now, it 
is at $209 a share. They were a $5 billion company, and now 
they are a $35 billion company. I know my time is up. But we 
have to find a way to make taxpayers whole. To give them some 
stake in the commercial success that government-financed 
research produces in terms of drugs and technology. Thank you 
very much.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Mississippi, Mr. Kelly, for five 
minutes.
    Mr. Kelly. Thank you, Mr. Chairman. And thank you, 
Director, for being here today. It was also nice talking to you 
yesterday in preparation for this hearing. The security of the 
world depends on a credible and capable American military. In 
order to do that, the bipartisan National Defense Strategy 
Commission recommended an annual 3 to 5 percent real growth 
increase above the rate of inflation for the combined defense 
budget. Why has the President done less than that in this 
budget, when we had a bipartisan commission say that we need 3 
to 5 percent real growth in defense spending every year, while 
every other--other than Homeland, every other non-defense 
spending area increased by up to 16 percent?
    Ms. Young. Congressman, I think you have to look at the 
historical spending on a lot of these non-defense programs 
compared to defense. Also, I appreciate the growth. There is an 
assumption that we don't have to look at outdated technology as 
defense to reprioritize, as many agencies on the other side of 
the ledger what we call non-defensive, had to do for many 
years. So, we think there are efficiencies to be had in defense 
where we can also, to the tune of over $700 billion, still be 
the world power with regard to our military might.
    Mr. Kelly. And on that note, how much of that $700--how 
much of the defense budget for the $753 billion, how much of 
that is actually spent on climate change, green fuels, things 
that don't build tanks, train people to drive tanks, don't 
build airplanes, don't refuel airplanes? They are not operating 
costs. They are for things that should be above and beyond. 
They are not defense. So, how much of that goes into green or 
fuel efficiency green stuff in the defense budget?
    Ms. Young. As you know, defense uses--is our top purchaser. 
We have immense need for environmental cleanup in the defense 
world as bipartisan members want to see that line item increase 
given the Defense Department's historic use of PFAS, PFOA. So, 
we think they are appropriate uses. You look at military 
housing, for example. I know you served in the military.
    Mr. Kelly. Director, my question is, I know there is over 
600 million that is earmarked to be for green stuff in defense. 
It doesn't go to tanks, airplanes, ships. There is also another 
$80 million that is earmarked for renewable fuels. My point is, 
is it is really not even an increase in the defense budget when 
we are doing green stuff that--I have no issue with green 
stuff, but it shouldn't be part of defense budget or a large 
part of the defense budget.
    Going to my next point, is there any provision in this 
budget or is OMB looking, or the President, the Administration, 
looking at anything? Right now, our Guard and Reserve are 
talking about not having Guard drills. That means people don't 
have jobs starting in August or September because of all the 
money expended on Capitol, on protection of the Capitol and all 
the COVID response from the Guard that has not been 
supplemented. Is there any talk of supplementing the Guard and 
Reserve for all the things they have done to help this great 
nation over the last year?
    Ms. Young. I believe you all just passed a bill to do 
exactly that in the January 6 supplemental. And we----
    Mr. Kelly. OK.
    Ms. Young [continuing]. we supported that from the 
Administration. We sent a statement of support.
    Mr. Kelly. Very good. And going back to the gun buyback 
program, I think there is $10 million, which first of all I 
think history shows and data shows that gun buyback programs 
are not very effective in areas that they have done those. Many 
times, the crime and gun violence rate goes up. Is this just a 
slippery slope to have a mandatory gun buyback program at some 
point in the future? Or, I mean, what is the purpose of 
spending this $10 million for a gun buyback program?
    Ms. Young. I think the purpose of our intense focus on gun 
prevention, gun violence prevention, writ large throughout this 
budget is to acknowledge we have an issue with gun violence in 
this country, including the proliferation of mass shootings, 
that we have to use every tool to get under control.
    Mr. Kelly. So, what are we doing about the violence part of 
gun violence? You know, people always focus on the gun side of 
that. But whether you are running a car through a crowd, 
whether you are setting off a bomb, there are many, many ways. 
What does this budget do to address the mental side, the 
violent side, of this part? Because that is the important 
issue. It is not the guns. It is the violence, or the violent 
tendencies of people.
    Ms. Young. I don't disagree with you that in addition to 
the initiative being led by DOJ, the other co-lead would be the 
Department of Health and Human Services, which has a lot of 
those wraparound services that people need. So, there is a 
comprehensive approach planned.
    Chairman Yarmuth. The gentleman's time has----
    Mr. Kelly. All right, thank you, and I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Pennsylvania, Mr. Boyle, for five 
minutes.
    Mr. Boyle. Well, thank you, Mr. Chairman. And thank you for 
joining us today, although I don't envy the day you have ahead 
of you. I think we should consider the true public service that 
you having to spend all the hours today dealing with questions 
from us. But I have to say, I am enormously excited by this 
budget proposal.
    When we look at our nation's federal budget, it is more 
than just the bottom line. It is, as President Biden often 
says, a statement of our values. And in the wake of a once-in-
a-century pandemic that crippled our economy and changed life 
as we know it, now is the time to go big and be bold to get 
America back on track. And that is exactly what this budget 
does. From childcare to infrastructure, work force development, 
to veteran services, this budget restores our investments in 
true American values and invests in the American people.
    Now, as we are looking at next steps, the President's 
American Jobs Plan is our next opportunity to continue our 
recovery and progress our nation forward. Moody's Analytics did 
a thorough analysis of the jobs plan and concluded that it 
would stimulate long-term economic growth, create high wage 
jobs, and lower unemployment. In fact, their estimate suggests 
the proposal would create around 2.7 million new jobs with 
significant wage growth for people with lower incomes. I was 
wondering, Acting Director Young, if your figures show 
something similar to what Moody's shows and if there is 
anything that you wanted to elaborate on that point?
    Ms. Young. I think it ties greatly with what Congressman 
Higgins pointed out. We will see economic growth if these 
policies are enacted. It is not just about the policies you see 
with taxes and spending here. But we certainly expect to see 
our economy grow just by these investments. I don't think we 
have even ourselves fully calculated what a poor infrastructure 
has done to our ability to fully realize our economics in this 
country and exactly what you are saying and what Congressman 
Higgins is saying. We will see enormous growth from this.
    Mr. Boyle. So, something that actually both Congressman 
Higgins and Jeffries referred to but didn't mention by name is 
that we have essentially been hindered by sequestration for the 
last decade under the Budget Control Act. And while we did 
experience actually the longest economic growth in American 
history in the previous decade, it was not as perhaps robust as 
it could have been because of, frankly, shooting ourselves in 
the foot through the Budget Control Act. How does this budget 
reinvest in areas that have been significantly underfunded in 
the past? Not just through sequestration, but also, frankly, 
referring to the 70 years or so since the last major 
infrastructure bill?
    Ms. Young. We talk a lot about defense inflationary 
increases. You know, we serve 95,000 fewer kids in Head Start 
than we did 10 years ago. The Budget Control Act--a lot of the 
COVID spending last year on CDC was to catch up because we had 
underfunded our public health infrastructure for many years. 
So, these basic appropriations bills where I know 10 years ago 
we were looking for savings, what we got was a chronic 
underinvestment that we had to make up for when we saw 
ourselves in the middle of a pandemic. So, there are real life 
consequences to the Budget Control Act into efforts to not keep 
up with inflation. We're going back to--it took 16 percent for 
non-defense just to spend what the historical share of GDP is--
--
    Mr. Boyle. Right.
    Ms. Young [continuing]. on those programs.
    Mr. Boyle. And, of course, we are referring to this in 
nominal dollars in real terms, frankly, we have had cuts in 
many areas over the last decade. I was curious if you could--
and this is going to get very geeky, but, you know, you are an 
in-the-weeds person. The concept of dynamic scoring I know can 
be controversial. And CBO now applies it to tax cuts, but they 
don't apply it to the sort of investments that we are talking 
about here. Do you think that it is appropriate that we use 
dynamic scoring in general? And then if we are going to use it, 
properly account for the sort of growth we will have because of 
these investments?
    Ms. Young. I mean, I think the reason--and you are right--
it is in the weeds that it has been controversial is because 
the fear is it is easy game.
    Mr. Boyle. Right.
    Ms. Young. And we want the Congressional Budget Office to 
remain that institution. That probably doesn't make any of us 
happy with the numbers they come out doing. But there is 
something inherently wrong with looking at one side of the 
ledger one way and not looking at the investment, which is not 
spending, it is investment to get people housing and education 
for our children. So, you know, it is a complicated answer to 
say absolutely we think there is growth. If we look at it in a 
dynamic way, it certainly would show more of the reason to tell 
the story for the need for these investments. But there is real 
concern about the slippery slope and making sure that CBO 
remained impartial to push and pulls both ways.
    Mr. Boyle. Well, thank you.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Wisconsin, Mr. Grothman, for five 
minutes.
    Mr. Grothman. Hi, thank you. I want to go back--first of 
all, thank you for spending time talking with me the other day. 
Glad to see you are dealing with Congress so much. I want to go 
back to homeland security a little bit, what is going on at our 
southern border. The information that I have indicates at this 
time last year, we were letting virtually nobody in the country 
who was asking for asylum. And the border patrol statistics 
indicate that every month we were letting about 6,000 people in 
the country as what they call got-aways. In other words, people 
who weren't processed by border patrol, but just somehow snuck 
in that we monitor.
    At least the information that I have, and some of this 
information is hard to get a hold of, that in May this year, 
the border patrol estimates instead of 6,000 got-aways, we have 
about 30,000 got-aways. In addition, about 30,000 people are 
let in the country on potential asylum claims. So, about 60,000 
people are coming in the country as opposed to 6,000 a year 
ago. Could you comment on that and what do you think is an 
ideal number of people to have coming in the country either on 
asylum claims or got-aways? We have gone up from 6,000 to 
60,000 in a year, I think.
    Ms. Young. Congressman, one, I would like to point out we 
are still under Title 42 authorities at the border. So, that 
posture has not changed from the last Administration, given we 
are still in the midst of COVID pandemic. So, the way we handle 
single adults, for example, is exactly the same as the----
    Mr. Grothman. Great.
    Ms. Young [continuing]. Trump Administration. But the 
President has been clear when it comes to unaccompanied minors, 
children, he is not sending them back after they have made this 
treacherous journey. It is a matter of conscience and moral 
obligation with regard to children.
    Mr. Grothman. Well, great. What I am looking for is I am 
looking for a number. Because we don't have enough border 
patrol agents and because they are processing the children, the 
number of people coming across as got-aways, which includes 
single people or anybody, we believe has increased from 6,000 a 
month last year this time to 30,000 now. And we believe the 
combination of families and children has gone up from about 
6,000 to 30,000. So, we have right now have gone from 6,000 
people a month coming here to 60,000. And I am afraid it is 
going to continue to go up as the rest of the world finds out 
we are not doing a lot to enforce the borders. What do you 
think we should aim for in that number?
    Ms. Young. Congressman, can I----
    Mr. Grothman. From 6,000 to----
    Ms. Young. Can I ask for a clarification? Are got-aways 
people that you are saying slipped through apprehension at the 
border?
    Mr. Grothman. Right, exactly. They are a given number of 
people because we are underfunded. Maybe we get them on drones 
or, you know, we monitor that they are there. But as I 
understand, at this time last year, there were about 6,000 got-
aways a month. This year there are about 30,000. And at least 
the border patrol feels one of the major reasons for that is 
they are spending so much of their time processing the children 
or the families.
    Ms. Young. Yes, if it is those evading apprehension and 
evading our border laws, that would absolutely be an estimate. 
I can certainly talk to the Department of Homeland Security and 
see if they have a estimate for those. But given that they have 
evaded apprehension, that would be definitely a modeling of 
sorts. So, I would feel uncomfortable giving you a definite 
number of something we would not have the actual people to 
count.
    Mr. Grothman. I like you. And I would like to ask you to 
step up to the plate and talk to border patrol. I know the Vice 
President hasn't expressed a great deal of interest to what is 
going on on the southern border. I know there have to be--maybe 
you could be the border patrol czar. You seem like a sharp 
person. But I would like you to look into that and get back to 
us as what the Biden Administration thinks is an appropriate 
number.
    The next thing I am going to ask about is you have a lot of 
money in here for preschool, a lot of money for daycare. There 
are still people out there, families who are moms or dads 
taking care of their children of that young age. It seems as 
though this country is working toward having, just having the 
government take care of kids before age 5. Could you comment on 
that? Or what do you think about families who are taking care 
of their own children? Are you trying to make them obsolete? Or 
what is the deal here?
    Ms. Young. No, trying to meet people where they are 
economically. Look I, you know, love my job, but, you know, 
there are days where I certainly would like to spend more time 
with my family. That is not possible for me, for many women who 
have to get up and work to ensure that their children have 
adequate clothing and a roof over their head. So, I think we 
are meeting families where they are, where women, mothers have 
to be in the work force along with dads.
    Mr. Grothman. Can I give you one more question?
    Chairman Yarmuth. No, your time has expired. I am sorry. We 
are going to have a hard time getting everybody in before 2. 
So,----
    Mr. Grothman. OK.
    Chairman Yarmuth [continuing]. I can't let you. Thanks.
    Mr. Grothman. Thank you.
    Chairman Yarmuth. I now recognize the gentleman from Texas, 
Mr. Doggett, for five minutes.
    Mr. Doggett. Thank you, Mr. Chairman. And thank you, 
Director, for your service to our country and your testimony 
this morning. While hundreds of millions of Americans have 
benefited from the Affordable Care Act, I represent many who 
have not. Those who are economically disadvantaged Texans whose 
state Governors have failed them in expanding Medicaid to 
provide them access to healthcare. There are, as you know, 13 
states in which obstructionism has won out over providing care 
for our most vulnerable neighbors.
    You have a number of possibilities for how to address this 
problem. I have raised with you a backup proposal that has been 
joined by almost every Democrat from one of the 13 non-
expansion states. Which is to allow our local governments to 
take up much as they provided leadership during the pandemic 
when we had state governors fail, but to allow local 
governments to contrive directly with Medicaid, with CMS to 
provide Medicaid to their neighbors. And I would just like to 
ask you to consider that as a proposal to fill the gap and to 
cover now our folks. We would like to cover everyone, but we 
would like to be sure that at least some of those who are 
uninsured get covered. Could you respond on this issue of the 
people that have been left out of healthcare in our country who 
need it so much?
    Ms. Young. One, I am sympathetic. And you are absolutely 
right, some states have chosen, for whatever reason, not to 
expand Medicaid and it has left some of the, you know, the 
neediest of the poor without health insurance. And they can 
least afford to be without health insurance. In the budget, you 
may have seen we have a narrative about the budget with regard 
to the plans to cover those populations. The reason we did that 
is because we do think in the place of healthcare, we need a 
dialog here. We don't want to be prescriptive with Congress. We 
know many members, including yourself, have ideas on how to 
cover those whose states have chosen not to expand Medicaid. 
So, we will absolutely engage with you on your idea. And we 
think it is, in the space of healthcare, it is necessary to 
allow those conversations to continue, rather than dictating a 
specific policy the Administration may want.
    Mr. Doggett. Thank you very much. And as we address the 
issue of prescription price gouging, is it also important that 
any plan that we adopt assure that its benefits accrue to help 
the uninsured as well as the insured?
    Ms. Young. Absolutely, sir. We feel strongly that Medicare 
should be in control of negotiating drug prices. We think that 
is beneficial for controlling healthcare costs in this country. 
Also ensuring that we get needed medications to those with and 
without insurance. But, of course, the ultimate goal is to make 
sure everyone in this country has health coverage.
    Mr. Doggett. You know, Director, it would be amusing were 
it not so serious to listen to our Republican colleagues talk 
about their concern of debt these days when they express no 
concerns about debt when the leader of their cult, Donald 
Trump, proclaimed himself the king of debt. I think there is 
reason to be concerned, be fiscally responsible going forward, 
but to not let this be an excuse for addressing some of the 
pressing needs that are outlined in the budget that you're 
presenting today. Why is it that the President today has 
focused on paying for the needed infrastructure improvements 
instead of just borrowing more as Republicans did to address 
other security needs? And isn't it important to move forward 
with those revenue measures which the Republicans rejected at 
the same time they said they would only agree to programs that 
were paid for?
    Ms. Young. So, the tax policy you see are two part. It is 
to present a fiscal path that is responsible to make sure that 
the proposals put forth by the President are fully offset. But 
it is also the right policy to ensure a fair tax system in this 
country, that nurses who worked during COVID who pay a certain 
percentage of their salary that that should be matched by the 
very wealthy in corporations. So, there is a two-part benefit 
here that it pays for our policies, puts us on sound fiscal 
ground, but also ensures that we have a fair tax system.
    Mr. Doggett. That we have equity for individuals and that 
our multi-nationals are treated the way our small businesses 
are and not given a special preference over them. Thank you so 
much.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlewoman from Colorado, Ms. Boebert, for five 
minutes.
    Ms. Boebert. Thank you very much, Mr. Chairman. And thank 
you, Director Young, for coming before the Committee today. You 
made reference in your testimony to be confronting historic 
challenges. But what we didn't hear a word about was how this 
President will confront the historic crisis at the southern 
border. The silence of the President's budget and your silence 
on this crisis in your testimony actually speaks very loudly.
    I have been to the border two times. That is twice as much 
as our current border czar and seen firsthand the chaos this 
President has created. It really is a crisis of the President's 
own making. Even our border patrol agents have no problem 
admitting that this is a manmade crisis by this Administration. 
Even saying that they had prepared for the change of 
administrations. They prepared for the influx and the surge of 
migrants crossing the border. But just like Mike Tyson says, 
everyone has a plan until you get punched in the face. And our 
border patrol has been punched in the face by this 
Administration.
    The President appointed Vice President Kamala as border 
czar and refuses to provide the real resources and policies 
necessary to secure the border. Your budget has a zero percent 
increase in homeland security. No money to finish building a 
border wall. When in the previous budget approved and allocated 
funds were diverted from border wall construction. And 
contractors are still being paid despite construction halting.
    I am a business owner. You don't pay people for not doing 
the work. Yet, the American people are paying contractors to 
not build the wall. But $4 billion in rewards to Central 
American countries who are flooding our border with illegal 
immigrants are in your budget. Your budget mentions border 
security zero times in all 72 pages of the budget proposal.
    This is at a time when border crossings are at a 21-year 
high. And there are 22,000 unaccompanied minors in HHS custody 
you talk about that our conscience and moral and the 
unaccompanied minors who are at the border, but parents are 
self-separating from their children because of this 
Administration's policies. In April CBC encountered a record 
high of over 170,000 illegal aliens. May is the third straight 
month of over 170,000 apprehensions, which hasn't occurred 
since 2000. Authorities are on the case to apprehend a 1.35 
million illegal aliens this year. This most since 2000.
    Meanwhile, the Biden Administration released more than 
26,000, 26,233 to be exact, illegal aliens into communities 
across the United States. I have seen them bussed from McAllen, 
Texas station and even flown on our airplanes, paid for by 
United States tax dollars. And they are getting on those planes 
without an ID as well. CBP arrested 5,900 violent criminals in 
just the first four months of this Biden term. Arrests for 
murders are up 1,133 percent. Arrests for sex crimes doubled. 
Arrests for weapons smuggling almost quadrupled. And arrests 
for drug traffickers tripled.
    Without the funds, infrastructure, technology, and support 
for our brave CBP and law enforcement, the cartels win and 
human beings suffer. I think the one question I have for you, 
Director, and most Americans have for this President and this 
Administration, is just how long will you be ceding the 
southern border to the cartels?
    Ms. Young. I would like to remind everyone and who cares 
about where the border funding came from the last 
Administration. We are returning the billions of dollars that 
were taken from our men and women and troops in uniform for the 
southern border work. So, this Administration is returning 
Department of Defense money that bipartisan members decried as 
taken away from----
    Ms. Boebert. Reclaiming my time.
    Ms. Young [continuing]. critical projects.
    Ms. Boebert. Excuse me, reclaiming my time. We are not 
talking about the funding that was taken away. Right now, we 
are currently paying contractors to not build. I asked you how 
long will you be ceding the southern border to the cartels? 
That is my question to you, Director.
    Ms. Young. Well, given the bipartisan concern from the 
stealing from DoD, I thought it was important to highlight 
that. And also highlight that we are moving away from an 
unsustainable border wall that has not worked to technology, as 
you pointed out to increase----
    Ms. Boebert. Reclaiming my time.
    Ms. Young [continuing]. the immigration----
    Ms. Boebert. Reclaiming my time. I need you to answer the 
question that I am asking you. This is my time. How long will 
you be ceding our southern border to the cartels?
    Ms. Young. That is not a question with an assumption in 
which I am going to assume. So, we can certainly talk about the 
reassessment at the border.
    Ms. Boebert. My time is up. Thank you very much, Director.
    Ms. Young. Thank you.
    Ms. Boebert. My time has expired. Thank you, Director.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from North Carolina, Mr. Price, for 
five minutes.
    Mr. Price. Thank you, Madam Director. And it is a pleasure 
to call you that. We welcome you back to your home turf, 
Capitol Hill, and you are doing a great job and we are very, 
very happy to see you where you are. And by the way, it is 
absolutely imperative that the duly appropriated funds with 
bipartisan approval that were directed toward defense 
priorities and unconstitutionally diverted from that to pursue 
this border wall folly, it is absolutely imperative that those 
moneys be returned. And I commend the Administration for doing 
that.
    Also, very, very glad to hear you talking about 
infrastructure and we are doing more than just talking about 
infrastructure. We have done that for a long time. 
Infrastructure week almost became a punchline during the last 
Administration. But now we have a serious infrastructure 
proposal. And I want to ask you something about that.
    The investments come close to home for me because I am 
chairing the Transportation and Housing Appropriations 
Subcommittee. Both halves of that committee, so to speak, are a 
part of this infrastructure emphasis. And I want to ask you to 
elaborate on that. Namely, to talk about how you define 
infrastructure, and how the Administration has thought about 
this. What do you make of the critique that the definition is 
overly broad? I tell you, I am very, very happy to see housing 
and community development included in the definition of 
infrastructure. And water and sewer systems and the electrical 
grid and broadband, as well as all modes of transportation. But 
how did you and your colleagues come to decide what should be 
included in the President's budget as an infrastructure 
initiative?
    Ms. Young. Well, I will save most of my remarks for Mr. 
Price, but everyone should know he is my first chairman I ever 
worked for on the Appropriations Committee and ably now serves 
on the Transportation and Housing Subcommittee, but a long 
experience since the Department of Homeland Security was 
founded. So, thank you for the comments on DHS.
    But also, with regard to where you sit now with 
transportation and housing, the Jobs Plan invests in all 
things. We consider infrastructure, the systems, the 
structures, the foundation. That makes good jobs possible. We 
have to look beyond this traditional limited view of 
infrastructure. Of course, it includes roads, bridges, ports, 
and rail. Goods and services need that transportation 
infrastructure to get from producers to consumers, but it also 
needs housing and building infrastructure. Business and workers 
need modern, safe, resilient homes and workplaces in the 21st 
Century, and that includes a care infrastructure. Millions of 
workers simply cannot be productive without access to quality, 
affordable care for their children or for a family with a 
disability or for an aging parent. So, we need a comprehensive 
view of what we consider infrastructure as lasting, is 
foundational, it supports that makes our whole system work 
better. So, doing one part of that we don't believe puts us on 
the path that is sustainable for the next 20 or 30 years.
    Mr. Price. Well, that is a focal point of debate. And I 
think you--what you say is very persuasive. I hope that that 
viewpoint will prevail as we put this together.
    Another point of controversy, of course, has been raised by 
my colleague, Lloyd Doggett, namely how do you pay for this? 
You are electing to pay for it. The Biden Administration said 
you want to pay for the Jobs Plan and the Families Plan. Of 
course, you are being criticized for that. But you would also 
be criticized if you didn't pay for it as you well know. 
Anyway, can you talk about the basis for your tax decisions 
that go along with it? It is not the merits of the tax 
decisions particularly the one, but what--why do we need to pay 
for this in terms of fiscal policy? Why do we need to pay for 
this or some portion of it? And do you have anything to say 
about the debate over user fees versus coming from directly 
from the U.S. Treasury?
    Ms. Young. Congressman, we talked about this a little, but 
it cannot be reiterated too much. There is a reason to do this 
to be fiscally sound to make sure every dollar we spend in the 
President's proposals are offset. We can do that without taxing 
people who make less than $400,000. That is what you see before 
you. We think that is responsible to ensure that the middle 
class and those trying to enter it are not impacted. But we do 
believe there is merit to paying for policies, but also it is 
the right thing to do to ensure that the wealthiest Americans 
are contributing their fair share and pay what average 
Americans pay as a percentage of what they bring in.
    Chairman Yarmuth. The gentleman's time has expired.
    Mr. Price. Thank you. Thank you, Mr. Chair.
    Chairman Yarmuth. Yep, the gentleman's time has expired. I 
now recognize the gentleman from Pennsylvania, Mr. Smucker, for 
five minutes.
    Mr. Smucker. Thank you, Mr. Chairman. Director Young, thank 
you for being here. I want to talk a little about the overall 
spend number in this budget and what it does to our national 
debt. You know, many of the colleagues, my colleagues on my 
side of the aisle are seriously concerned about this seemingly 
insurmountable debt. And, in fact, that concern is shared by 
Members from both sides of the aisle. And I think, you know, it 
has been recently made much worse by this Administration's 
spending. And I think it will be catastrophic potentially for 
our nation if this proposed budget should become law. So, I 
would just like to hear from you whether you share those 
concerns. Are you concerned about the long-term impact of our 
burgeoning national debt on the future of the country?
    Ms. Young. Congressman, I hope you see that the concern 
from the Administration by our willingness to put offsets on 
the table that pay for all of the President's proposals.
    Mr. Smucker. But we would still have growing deficits going 
out year after year, over $1 trillion per year. You know, when 
I last served on this Committee, in the 115th Congress, the 
then Director of the CBO, Keith Hall, used the term sovereign 
debt crisis, which was a new term to me. But he described the 
situation that we will eventually be in that will be a real 
shock to our nation's system. And your predecessor, then OMB 
Director Mick Mulvaney, he added some color to his remarks at a 
subsequent hearing and said that, you know, eventually we are 
going to balance the budget. It is either going to be through 
proper congressionally driven avenue, or it is going to be 
printing a bunch of money, or through having a future lender 
force fiscal responsibility on us as a condition of future 
borrowing.
    And unfortunately, the budget right now is in much worse 
shape than it was when those comments were made. And, you know, 
despite that, the way I see it, the President with this budget 
and with the spending that we have seen, seems to have taken a 
new approach. And I think this Administration has chosen to 
just simply ignore the debt crisis entirely and instead go on 
this massive spending spree. And it is going to be paid for by 
massive tax increases. It is going to impact every single 
American.
    Now, you know, you have said, the President has said, and I 
think falsely, that this budget proposal will only increase 
taxes on the wealthiest Americans. But in fact, it is out of 
control government spending and the printing and borrowing that 
is necessary to pay for it is already causing a steep rise in 
inflation. And if you don't believe that, look at last month 
report. It shows that inflation in April reached its highest 
level in 40 years. And I fear that this is just the beginning 
of what we are going to see for years to come due to this 
monetary policy.
    Inflation is a real tax on working class Americans. They 
are already feeling it. You feel it at the gas pump today. You 
can feel it at the grocery store. If you are remodeling your 
home, buying a new home, building a new home. Inflation is 
very, very real. So, Ms. Young, if inflation continues to rise 
at this current alarming rate, if we continue to see those kind 
of reports, are you prepared to rollback some of these spending 
proposals?
    Ms. Young. Congressman, I think this Administration, this 
country are lucky to have the economists this Administration 
knows from Janet Yellen to CeCe Rouse. We don't see those long-
term economic indicators that lead us to believe we are going 
back to inflation levels of the 70's. We see short-term issues 
certainly coming out of a pandemic. That is not surprising. But 
we see those as short-term. But we do absolutely continue to 
monitor. And I would like to also----
    Mr. Smucker. Let me----
    Ms. Young [continuing]. point out----
    Mr. Smucker. Let me just----
    Ms. Young [continuing]. that this budget does assume 
increased interest rates throughout the out years. We tried to 
present a responsible vision of where we see that.
    Mr. Smucker. I want to just get--I'm sorry. I want to stop 
you on that. Just want to get another quick question in. So, do 
you believe that we can just tax our way out of debt? Or do you 
think that economic growth is a factor that we should be 
considering in reducing debt? Because the economic growth 
figures, the projected numbers in your budget, are pretty 
dismal going forward for the next 10 years. So, just, you know, 
how do we get out of debt? Can we tax our way out or is 
economic growth a factor?
    Ms. Young. Congressman, the one place we will agree is our 
economic figures. Thankfully, this country, due to the vaccine 
effort, has grown faster than we imagined in this budget. And 
you will certainly see updates of those economic measures as we 
do the mid-session review.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlewoman from Illinois, Ms. Schakowsky, for 
five minutes.
    Ms. Schakowsky. Thank you very much. And I thank you and 
congratulate you, Ms. Young, as being the OMB head and welcome 
you so much to this hearing. Thank you so much. I wanted to 
focus on long-term care. You know, the United States of America 
does not really have a long-term care policy. Every family 
trying to figure out for themselves. And we know that Americans 
are aging at a very rapid rate. Ten thousand people turn 65 
every single day in this country. And we also know that there 
is a severe shortage of paid caregivers. And people who have 
let--are having fewer children and that means in the future it 
will be even a bigger problem. And with the current demographic 
trends, these problems are bound to get worse.
    So, nevertheless, the country doesn't have the aging 
policies that--and the strategies that we really need. And we 
expect that to grow 40 percent of the people who are over 65, 
or 65 to 84, by 2040. So, here are a couple of questions that I 
have for you. In the face of these challenges, what do you 
think is the most financially viable option for the country to 
ensure quality, equitable care for our older Americans?
    Ms. Young. Congresswoman, you see an investment in this 
budget of $400 billion over 10 years to support expanding home 
and community-based services, and strengthening home-based work 
force and extending the Money Follows the Person Program. I 
have a family who not only worked in home healthcare, it is 
tough work. Depending on where you live in this country, it is 
not work that is easy to make a living on and support your 
family. I also had a grandmother who helped take care of me and 
helped care for her mother as she was dying from Alzheimer's. 
This is tough work. We can do better as a country. And this is 
a first step to making that transformational change in this 
country.
    Ms. Schakowsky. Well, as the co-chair of the Task Force on 
Aging and Families, I look forward to working with you on the 
exact language of that. According to AARP and the National 
Alliance for Caregivers, in 2020, over 21 percent of Americans 
were providing care for an adult or a child with special needs 
during the past year. This is a particular challenge for the 
sandwich generation that is taking care of both children and 
aging parents. And before the pandemic, many caregivers, 
predominantly woman, have had to cut back on work hours and 
leave the work force entirely with an average loss of 33 
percent of their income each year. And so, this is a really, 
really serious problem. So, could you explain how paying family 
caregivers would actually affect our country long-term?
    Ms. Young. Congresswoman, not just for the workers, 
ensuring that they can take care of their families, also many 
other families need those workers to come in ensuring that they 
can go to work and make ends meet for their families. So, it 
helps both the caregivers and the families in which they 
assist, and, you know, as we have talked about in this hearing, 
women have to work in this day and age to help take care of 
their family. It is not optional for many of us. So, this is 
absolutely necessary. We see, you know, the sandwich generation 
having to take care of both children. That is why you see the 
childcare investments. But also, older adults and those with 
disabilities in the family. So, we see this as a necessary long 
overdue change in this economy.
    Ms. Schakowsky. Well, I really look forward to this 
investment now in long-term care and working with you to figure 
out some of the details, which we certainly want to present to 
you. So, thank you so much. I yield back.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from New York, Mr. Jacobs, for five 
minutes.
    Mr. Jacobs. Thank you, Director. I want to thank you, as 
well, for our discussion yesterday on the phone. I appreciate 
you taking the time. One of the questions I asked yesterday I 
wanted to just followup on. I had mentioned my concern about 
the stepped-up basis, in particular to farms. Agriculture is 
the biggest sector in my district in western New York. I was 
glad to hear about the exemptions for the transference of--I 
guess I am asking both about stepped-up basis and estate taxes. 
You mentioned about the exemption for family farms, for 
transfers to family members. I was just wondering if you know 
specifically what will be considered a family member? How broad 
that will be? Will it just be a son or a daughter or would it 
be broader than that?
    Ms. Young. Congressman, this is something I think we have 
left a space to work with Congress to make sure we get that 
definition right. The overall goal is to make sure these family 
farms absolutely continue. We want to have a tax system that 
encourages them to remain family farms, stay in the family. So, 
we are happy to and I think the purpose is to make sure we get 
that definition right.
    Mr. Jacobs. Thank you. Yes, I will just say in our area, we 
are trying hard or I am trying hard as I can to help with 
transitions, the farms to continue them to operate as locally 
owned family based farms. And sometimes the immediate son or 
daughter is not there, but a nephew who really wants to do it. 
And if there could be a combination for those sort of things or 
even beyond that. Because we are, you know, we just need to do 
everything we can. So, I would love to work with you on that.
    Just another question regarding the increase in capital 
gains from 20 percent, which is now at a 39.6. A lot of the 
budget modeling estimates a decrease in revenue from that. The 
Penn Wharton Budget Model had a $33 billion, the Tax 
Foundation, $124 billion. CBO estimates that revenue maximizing 
rate to be 28. What is your revenue estimates on capital gains?
    Ms. Young. Congressman, let me see if anyone from the team 
has the exact number. But we will get that to you before the 
end of the hearing or after the hearing.
    Mr. Jacobs. OK. Thank you. I would assume you would not 
want to be losing money on a tax increase, otherwise it would 
be just viewed as a punitive measure.
    I just wanted to comment on the capital gains in New York 
State and the impact and some of the concerns I have. New York 
State what we are seeing here with the 39.6 plus the Medicare 
add-on, which is about 43.4, but New York State has a capital 
gains as well. So, we are well over 50 percent, 54 percent to 
be exact, in New York State, which would be our capital gains 
rate. Then if you look at New York City, which we are so 
dependent on as far as revenue, we are close to 58 percent 
because New York City has a capital gains impact.
    My real concern here is during COVID, we had a significant 
exodus of people out of New York City. Three hundred thousand 
changed their address. Granted, some will come back. But I know 
that we have a record of 32,000 people changed address, changed 
driver license to Florida alone. We are very dependent on the 
revenue generated from New York. And I am very concerned about 
if this significant increase in capital gains consequence of 
well over 50 percent of money earned could have a very 
detrimental effect to continue to cause the loss of population 
in our state.
    And as a state senator, I was concerned about this that 40 
percent of our revenue several years ago and has increased 
comes from the top 1 percent, mostly from down state in New 
York City. If New York City gets a cold, the rest of the state 
gets the flu. This could have significant long-term impact to 
the viability and long-term success of our state. So, just 
something to keep in mind. I am out of time. Thank you for your 
time.
    Ms. Young. I know the time, but Mr. Chairman, the capital 
gain----
    Chairman Yarmuth. You can respond.
    Ms. Young [continuing]. savings in the budget are $322 
billion.
    Chairman Yarmuth. Thank you for that. The gentleman's time 
has expired. I now recognize the gentleman from Michigan, Mr. 
Kildee, for five minutes.
    Mr. Kildee. Thank you, Mr. Chairman. And thank you very 
much, Director Young, for being here today to talk to us about 
the President's Fiscal Year 2022 Budget. I really appreciate 
the focus that this budget puts on infrastructure and building 
out our middle class and strengthening, particularly 
strengthening public schools. Very important priorities.
    One area of reinvestment that I would like to discuss with 
you is the need to provide strong federal support for our 
cities. And particularly those cities that have suffered 
chronic economic hardship, a high level of poverty, and 
disinvestment that is due to trade related events that 
obviously have disparate impact on communities across the 
country, and also contribute to significant job losses. As you 
highlighted in this budget, the Trade Adjustment Assistant 
Program expires at the end of June. And I have been working as 
a member of the Ways and Means Committee with Mr. Blumenauer 
who chairs the trade subcommittee and our full committee chair, 
Mr. Neal, to reform trade adjustment assistance to help more 
people who are negatively affected by this disparate impact 
that trade may have on various communities and regions.
    Specifically, I have been working to develop a trade 
adjustment assistance program for communities. As we know, 
communities affected by trade can have an impact on firms, can 
have an impact on workers, but also, when a large business like 
a manufacturing facility closes due to trade, it is not just 
workers and companies. The entire community is impacted. They 
relied often on those employers and the jobs that they provide 
as the heart and soul of economy. So, they are negatively 
impacted even if they are not directly related. So, our trade 
adjustment assistance for communities is an approach that I 
think might work.
    One related area that I know the budget proposes is a 
community revitalization fund at HUD for redevelopment projects 
in chronically distressed areas. And I wonder if you might 
touch on two things. One, if you could discuss a bit more about 
how the Administration envisions this proposal, and whether we 
might find some common ground or some synergy with my TAA for 
communities proposal.
    And then also, before you are done, if you could comment on 
the issue of the Delphi salary retirees. I have raised this 
with you before when we have chatted. For too long, these 
pensioners have been fighting to have their hard-earned 
benefits restored. And I would like to work with you and the 
OMB to find a way forward for these individuals. So, thank you. 
If you could comment on those two subjects, I would really 
appreciate it.
    Ms. Young. One, I will just start with Delphi and you and I 
have had conversations about this. And I had certainly 
recognized the challenges that the Delphi pensioners, many of 
whom had hard-earned retirement benefits reduced as a result of 
Delphi's bankruptcy. We will continue to work with the Pension 
Benefit Guaranty Corporation to ensure that these pensioners 
are receiving the full extent of benefits they are eligible for 
under the law. So, we know it is a heartbreaking situation any 
time this happens. So, we certainly want to work with you and 
other members who have identified this as a problem.
    As far as the Community Revitalization Program, we do think 
there is an opportunity to work with you on incorporating the 
trade adjustment fixes you have been working through Ways and 
Means on. And we are happy to engage with you to make sure 
there is synergy and we are picking up the efforts through this 
program, and happy to work with you.
    Mr. Kildee. Thank you. One other area, if you wouldn't mind 
commenting on, because you and I have also worked even in your 
previous role, on issues related to drinking water. I talked to 
the President a couple of weeks ago about this and he made it 
quite clear that he intends to eliminate lead service lines 
throughout the entire country from the drinking water systems. 
Knowing that in places like Flint, the cost of failure is so 
much greater than the price of preventing that sort of failure. 
Twenty or $30,000 million in Flint, for example, could have 
prevented what is now going to be somewhere between half a 
billion and $1 billion spent to deal with the fallout of that. 
Could you comment on how this budget addresses issues of access 
to clean drinking water? And particularly, how an 
infrastructure plan would prevent significant costs downstream 
if we get it right by making these investments now.
    Ms. Young. I think Flint was an awakening. It was not 
unfortunately a one-off in this country with regard to lead in 
water, and the damage that does to children as they grow. We 
see the costs of that throughout their life. And it is a cost 
to the country in what they would have been able to achieve had 
we provided them safe drinking water. So, what we have found 
since Flint is this is unfortunately, you know, epidemic around 
the country. I just got in the mail from my own locality, you 
know, a way to check my own lead service pipe entry. So, this 
Administration through the Jobs Plan seeks to replace every 
lead pipe leading into a home to ensure that we provide clean 
water to all our American citizens.
    Mr. Kildee. Thank you. I yield back. Thanks for all your 
great work.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Texas, Dr. Burgess, for five 
minutes.
    Dr. Burgess. I thank the chair. And it is good to see you, 
Administrator. That you for visiting with me the other day. I 
have a question that was actually given to me by a constituent 
Saturday night, and it is about the President's proposed tax 
plan. I am going to submit that to you in writing because it is 
fairly technical and fairly complicated. And I know we can't 
probably answer it within the constraints of the five minutes 
that are available. But I just wanted to underscore how serious 
a question it is and why just to, again, it is something that I 
need to be able to get back to this individual with at least 
some explanation of what the reasoning is about some of 
President Biden's proposals to the tax law. I mean, he says he 
is not going to affect anyone who earns under $400,000 a year, 
but it looks like he is going to affect it in a big way. So, I 
would appreciate your response on that.
    Now, this morning when I picked up my local paper, the 
Dallas Morning News, and turned to the editorial page, as I 
will frequently do to make sure they are not disparaging me in 
some way, shape, or form. And the headline on the editorial 
page and I don't know if you can read it from this distance, 
but the headline is, the budget reads like a fairy tale. And 
this is unusual because the Dallas Morning News generally tends 
to be more left of center than right of center. But they raised 
some interesting points. And I would just like for you to 
comment on that if you could. They do make the point that 
taxpayers--they acknowledge the need for investment in 
infrastructure. They say taxpayers have every reason to choke 
on a budget that is basically a wish list that is as 
impractical as the birthday demands of a child who has no 
appreciation of the value of money.
    There is no way around the difficulties in paying for it 
whether it is taxes or adding to the deficit. Either trajectory 
is unsustainable. But it comes down also on the issue of 
inflation. And I do wish you would address that. This article 
maintains that nothing in the Biden budget works if inflation 
comes back as a factor. And we have seen the month of April, 
there is 4 percent inflation for the month. So, could you 
address that, how inflation is going to impact the aspirational 
document that we have in front of us?
    [Article submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Young. Dr. Burgess, thank you for the question. Also, 
you know, I understand people will disagree with the offsets 
here, the tax reforms. But it is important to know that trying 
not to live in a fairy tale, this President bothered to offset 
his policy so we did not add to and have a fiscal policy that 
was not fully offset. So, that is one. And two, on inflation, 
as all of you know, and I will just remind everyone, in the 
country, the Fed has the tools to look at inflation and 
interest rates and try to make sure we have no problem. And I 
know they are looking at the same indicators we are.
    Dr. Burgess. I do have to interrupt----
    Ms. Young. We think the long-term view is we still 
welcome----
    Dr. Burgess. I do have to interrupt you here for just--and 
I apologize for doing it, but time is short. I mean, Mr. Powell 
was on the CBS news show not too long ago saying he was 
absolutely not worried about inflation. Inflation is not an 
issue. But clearly, your budget is--any hope it has of balance 
at some point in the future is predicated on historically low 
interest rates being maintained and again, the proof is what we 
have seen. Four percent inflation for the month of April. You 
can't do it with that kind of number.
    Ms. Young. Yes, if we thought there was a long-term 
inflation problem, which as you pointed out, the Federal 
Reserve does not see those indicators being a long-term 
problem. We remain well anchored. But, of course, we will have 
pressures when we come out of a pandemic year. And that is what 
we believe we are seeing, not a long-term problem.
    Dr. Burgess. Yes, well, it is going to be sooner rather 
than later. And I don't think, with all respect to Mr. Jerome 
Powell, I don't think he has bought a 2X4 or a bag of Quikrete 
in a while because those prices have dramatically increased.
    Let me just touch on, and we talked about this a little bit 
when we visited the other day, and I do so appreciate the phone 
call. But some of the changes that were made in the American 
Rescue Plan to the advanced premium tax credit, also known as a 
subsidy for the Affordable Care Act, that it has gone from 
helping those at the lowest income scales to now people at the 
highest income scales. And at the same time, is going to expire 
in two years' time. I don't know if people are aware of that, 
but that is another looming crisis we have created for 
ourselves. But was there any discussion, any internal 
discussion, of what the effect of these increased advanced 
premium tax credits, or subsidies, would have on say the ERISA, 
the commercial insurance market, the large group market that 
protects 200 million people in this country?
    Ms. Young. And I know I have to be quick. The chairman's 
looking at me. But I remind everyone the Families Plan does 
make those premium tax credit subsidies permanent so as not to 
deal with the cliff you are talking about. But our overall goal 
was certainly to make sure more Americans had affordable 
healthcare to bring the premium costs down. And we are seeing 
more people enroll in the Affordable Care Act, which was the 
ultimate goal.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Nevada, Mr. Horsford, for five 
minutes.
    Mr. Horsford. Thank you and good afternoon, Chairman 
Yarmuth, and thank you for holding today's hearing. I want to 
first congratulate Acting OMB Director Shalanda Young on your 
historic appointment. I can't think of anyone more qualified 
and experienced to run the office of OMB at this critical time. 
And I want to thank you for being here. I also want to 
encourage the Administration as I have done repeatedly, to drop 
the acting in front of your name and your title and make you 
the permanent OMB Director.
    I want to focus my time on two issues. One, dealing with 
community violence intervention programs and the other on work 
force development. First, in 2020, gun violence has been a 
major issue in this country where we saw historic spike in 
homicides in communities across the country. And while final 
numbers are not yet available, criminologists estimate that in 
2020, there were just over 20,000 criminal homicides. A number 
that has not been crossed since the mid-1990's. A sizable 
portion of the spike occurred in urban jurisdictions of all 
sizes and occurred at the highest rates in racially segregated 
high poverty neighborhoods.
    Now, one of the strategies that we know works are community 
violence intervention strategies that are proven to reduce gun 
violence with direct effective measures deployed by trusted 
individuals who have an intimate understanding of the 
community. And it will also help save lives and reduce gun 
violence. Gun violence which has a really significant cost. As 
much as $280 billion a year from out-of-pocket medical costs, 
police response, and incarceration costs, and loss in 
productivity and revenue, not to mention the lives that are 
lost.
    President Biden's budget reverses this trend by requesting 
$200 million in discretionary resources to support a new 
community violence intervention initiative to implement these 
proven interventions across the country. The President also 
requests an additional $5 billion in total mandatory resources 
to provide long-term support for this initiative. So, Director 
Young, how does this Administration intend to break down this 
$5 billion over the next eight years based on the President's 
recommendation?
    Ms. Young. One, I want to thank you for your leadership on 
this, along with your colleague from Delaware. We worked 
extensively with you and others interested in this. We will 
continue discussions. I think we have a upcoming one with you. 
We need to work, I think, collaboratively here to make sure we 
are getting it right.
    One of your colleagues brought up the need to make sure we 
are dealing with wraparound services, not just the justice 
side. And the resources you point out are split between the 
Department of Justice and the Centers of Disease Control 
because we do acknowledge there are other components we must 
address when you deal with community violence issues. There is 
often other things going on that we need to make sure we are 
dealing with from a community standpoint.
    So, we look forward to those conversations continuing. 
Those are the things if you have a narrow scope of what you 
consider infrastructure that go away, and you have stated the 
cost of doing nothing to allow those--that trend of violence to 
continue, and we think we have to do something about that. And 
it is inherent that certain communities who are overly dealing 
with these issues are not seeing their full growth and so, this 
initiative is one of the things we certainly will push for when 
we look at how we view infrastructure and the need to make sure 
all Americans can take advantage of this prosperous country.
    Mr. Horsford. Thank you. Related to my question on work 
force development, I know our focus is on infrastructure and 
the Jobs Plan. But in order to create the jobs that we want to 
see, we need to also have an investment in human infrastructure 
so that people get the training particularly women and people 
of color who were disproportionately affected during this 
pandemic recession. So, related to the President's proposal, I 
believe there is $1.27 billion requested toward work force 
development, providing training that incorporates employers' 
and workers' needs. How will you make sure that these work 
force dollars are equitably distributed to reach the hardest 
hit communities and those who have been impacted?
    Ms. Young. I also would like to just highlight the $100 
million on the discretionary side for registered 
apprenticeships. We understand coming out of the pandemic 
people will have to seek different jobs that maybe they were 
not tooled for. So, the hope here is to retool workers from--
and I do think the President's order on equitable distribution 
of programs, the executive order comes into play here to make 
sure we are getting to communities from coal country to those 
urban centers to make sure we are hitting and bringing an 
equitable look in how we implement programs.
    Mr. Horsford. Thank you, Mr. Chairman. I yield back.
    Chairman Yarmuth. The gentleman's time has expired. Now, I 
recognize the gentleman from Virginia, Mr. Cline, for five 
minutes.
    Mr. Cline. Thank you, Mr. Chairman. I want to thank the 
witness for being here today. I appreciate the call that we 
received this week and we got to talk about some of the issues 
that were important. I want to focus on immigration and 
particularly border enforcement. Are you aware of a letter sent 
from Republican Members of this Committee requesting an opinion 
from GAO with regard to whether President Biden's suspension of 
the border wall violates the Impoundment Control Act?
    Ms. Young. I am, Congressman.
    Mr. Cline. We received a followup from GAO last week 
stating that their decision is pending responses from both OMB 
and the Department of Homeland Security. Has OMB responded to 
the GAO with requested information?
    Ms. Young. We have, and I believe GAO has communicated to 
the Committee that OMB and DHS provided timely responses. And 
that is something I am proud that will continue as a trend.
    Mr. Cline. I appreciate that. Can you share what OMB 
provided to GAO?
    Ms. Young. Yes. We understand the--I believe this Committee 
asked for the report and GAO requested it. But we can, pending 
any concerns from GAO, we are happy to provide that information 
to the committee.
    Mr. Cline. OK. Thank you. Can you talk about the percentage 
increase in the President's budget for homeland security 
funding for Fiscal Year 2022?
    Ms. Young. Yes. The overall budget is relatively flat. But 
we seek to move border wall funding. We seek a cancellation and 
would rather fund technology and migrant services and other 
items in DOJ and in HHS that we believe would improve the 
asylum system. Have people go through faster, have a more 
efficient process.
    Mr. Cline. In fact, despite all of these different items 
you are mentioning, border security is not mentioned in the 
budget plan. Is that correct?
    Ms. Young. I heard Congresswoman Boebert speak of that. The 
budget is certainly larger than 72 pages. Maybe we looked at 
the budget summary, but, of course, we have to mention border 
security. We talk about every government program in our budget 
documents.
    Mr. Cline. Now, you are speaking of support for border 
security for other countries in numerous sections of the 
budget, $861 million total for security and economic support 
for Central American nations, correct?
    Ms. Young. That is one of the areas we are funding to deal 
with the root causes of migration, which does impact our 
border.
    Mr. Cline. OK. Would you speak to the number of detention 
beds that the budget is anticipated to fund?
    Ms. Young. Sure. The same amount that Congress passed on a 
bipartisan basis last December. So, we are staying at that 
level.
    Mr. Cline. Is that the $32,500 level?
    Ms. Young. I believe so. I will confirm with the staff. But 
if that was the level in December, that is what we are funding.
    Mr. Cline. And I am showing $34,000 last year. So, a slight 
decrease, but relatively stable. Given the skyrocketing numbers 
that we are seeing at the border, do you think that there 
should be a reflection in the President's budget for additional 
bed requests?
    Ms. Young. I will remind everything we are still using 
Title 42 authority as long as we are in the pandemic. And so, 
therefore, the policies on how we deal with certain groups like 
single adults has not changed since the last Administration 
when we approved that bed number.
    Mr. Cline. Do you anticipate any funding to pay for hotel 
rooms for illegal immigrants?
    Ms. Young. Congressman, we certainly seek licensed beds 
when it comes to children. And we have turned to influx 
facilities, but we certainly will not take anything off the 
table to ensure that we don't have people who are sleeping in 
squaller.
    Mr. Cline. And I will take that as a yes. We talked a 
little bit about the infrastructure plan that the President has 
put forward. In particular, what constitutes infrastructure. I 
think you would find a broad bipartisan consensus for a 
streamlined infrastructure plan introducing concepts such as 
care infrastructure, which has never been considered by 
Congress. Never been approved as a concept by Congress. I think 
makes it more challenging to approve an infrastructure plan. I 
am a member of the Problem Solvers Caucus. We are putting 
forward plans that hopefully will garner bipartisanship in the 
House. I would ask you, can you give an example of something 
that the Administration considers----
    Chairman Yarmuth. The gentleman is already over his----
    Mr. Cline [continuing]. not to be infrastructure?
    Chairman Yarmuth. The gentleman is already beyond his time. 
So, I will not allow him to ask another question. The 
gentleman's time has expired.
    Mr. Cline. Thank you, Mr. Chairman.
    Chairman Yarmuth. I now recognize the gentlewoman from 
California, Ms. Lee, for five minutes.
    Ms. Lee. Thank you very much, Mr. Chairman. And thank you 
so much for your leadership and for putting this hearing 
together today. And I just wanted to also salute and thank our 
Acting Director, Ms. Young, Director Young, and associate 
myself with the comments of Congressman Horsford, my colleague 
from Nevada, who indicated that you certainly should be our 
next director and the most qualified and experienced we know 
personally that this should happen. So, thank you so much.
    Let me say a couple things. First of all, there are many 
items in the President's budget that I was very pleased to see 
such as critical investments in jobs and families. And, yes, 
our budget is a reflection of our priorities as a nation and 
this budget invests in the American people which certainly are 
critical to our infrastructure in this country.
    Of course, it is no secret that I was quite disappointed to 
see the President with his request in terms of an increase of 
our already bloated defense budget. The United States War on 
Terror has lasted two decades and cost the United States 
approximately $6.4 trillion. And the Pentagon itself is still 
unable to pass an audit like every other cabinet department. 
So, let me just ask you what effort is OMB making to identify 
excessive spending at the Pentagon? Where are you looking for 
waste, fraud, and abuse? What criteria are you using to 
evaluate whether specific weapons systems are affordable and 
appropriate for our national security needs?
    Ms. Young. Congresswoman, one, you know, I know your 
thoughts here well. You probably heard from the Folsom 
Discussion here that I don't think--some people don't think it 
is enough. Some people think it is too much. What we tried to 
do is assume some efficiencies in weapons systems. Also, pay 
for pay raises for our men and women in troops. That is part of 
the increase you see here.
    So, certainly assume that there will need to be retooling 
at the Department of Defense. I know Secretary Austin is 
working on those initiatives. We will continue to have reviews 
at the department that will refine the Department of Defense's 
budget. But we certainly have to work with Congress to find the 
right level here as you have heard. But thank you for your 
views here and pointing out that defense has to meet the same 
standards as every other agency to make sure the dollars spent 
here are efficient and go to troop readiness and making sure we 
can counter China.
    Ms. Lee. Thank you very much. And I am still going to 
request, and you don't have to answer it now, but a status of 
the audit and how waste, fraud, and abuse is being addressed 
within the Pentagon. Because there are billions of dollars we 
know that have been wastefully spent and have not been subject 
to audit requirements. So, please just get us----
    Ms. Young. We will work with----
    Ms. Lee [continuing]. that information.
    Ms. Young. We will work with the Department of Defense on a 
status update of the audit.
    Ms. Lee. Thank you very much. Let me ask you a couple of 
things about our international programs. And I am very pleased 
that the Administration has proposed increases to our 
international programs as it relates to development and 
diplomacy. COVID pandemic raging abroad, we have health 
challenges in terms of the economic impact of the COVID 
pandemic.
    Also, with regard to HIV and AIDS, we sent a letter, 
bipartisan letter, with Congresswoman Gonzalez Colon as it 
relates to establishing the Office of national AIDS Policy and 
making sure that that is staffed. And so, I would just like to 
find out where we are as it relates to our overall national and 
international budgets as it relates to HIV and AIDS and also 
for our development programs and our international programs.
    Ms. Young. So, absolutely. As we talk about defense, we 
also have to talk about our diplomacy because if we want to 
deal with a very complex world, we believe it is appropriate, 
which we are doing, to look at defense in a broad view and make 
sure we have the necessary increases in foreign assistance and 
aid. And that is what this budget does and that is why we think 
we have the right tools. So, certainly, our State Department 
and other international is up 11 percent. I am sure you will 
agree that it has been underfunded for many years but has to be 
taken in context of defense. I think General Mattis said it 
best, you cut diplomacy, you may as well buy me more bullets. 
So, this budget should be seen and I hope is seen is a effort 
to make sure we are exhausting every diplomatic tool before we 
turn to conflict in this country.
    Chairman Yarmuth. The gentlewoman's time has expired. Let 
me make one statement in relation to Mr. Cline and to all 
Members. I am not going to allow questions to be posed after 
the five minutes are expired. But as I said at the beginning, 
you have the right to submit questions in writing for the 
witness and both the question and her response will be part of 
the permanent record.
    With that, I now recognize Mr. Carter from Georgia. I owe 
Mr. Carter a couple of extra minutes from a prior hearing when 
he was cutoff. So, I am going to recognize you for seven 
minutes. If you don't want to take them all, we can roll them 
over to another time. Mr. Carter is recognized.
    Mr. Carter. Thank you, Mr. Chairman. I appreciate you 
remembering that. Not that I was going to let you forget it, 
but nevertheless, I do appreciate you remembering it. Thank 
you, Ms. Young, for being here today and for answering these 
questions. I have got quite a few questions. In fact, it is 
hard for me to decide which ones to ask.
    But I will start by asking you, in your testimony you said 
the budget makes growth enhancing investments that we need 
right now. And it predicts high growth while we are pumping, 
the federal government is pumping trillions and trillions of 
dollars into the economy, but it assumes that the economy will 
only grow at just under 2 percent per year for most of the 
decade. And despite all that funding or all that spending, I 
should say, your projections show the GDP growing to nearly the 
same as in the CBO's baseline projections. And my question is 
why won't these massive growth enhancing investments, as you 
put them, continue long-term economic growth? I mean, why are 
you predicting this only going to be short lived like this?
    Ms. Young. Congressman Carter, you probably heard me speak 
to the Ranking Member about this. The economic assumptions were 
built in February. We certainly expect updates and that is why 
we have the mid-session review to do exactly that. And we have 
outperformed even our--the current year growth, the first year, 
we have a 5 percent number. OECD and others, I believe the 
economic growth thanks to our robust vaccine rollout, will be 
closer to 6 and a 1/2 percent. So, that is something developed 
in February that we, thankfully, this country is coming out of 
the pandemic even better than we assumed in February.
    Mr. Carter. Is this telling us, is this budget telling us 
that all the unprecedented spending that we have seen with the 
pandemic and everything else that it is not going to payoff in 
the future? Or do you feel like it is going to pay off?
    Ms. Young. Certainly with the American Rescue Plan it is 
more than paid off. Not only in our economic assumptions, but 
the number of people we have seen hospitalized and alive after 
this virus. So, we have turned the corner thanks to the Rescue 
Plan and the spending in that plan. What the Jobs and Families 
Plan does is hopes to set us on a path for a better future so 
we are in a better place than even before the pandemic.
    Mr. Carter. I am not sure--well, I am not going to dispute 
what you are saying. But I am not sure I agree with that when 
you consider the fact that less than 9 percent of the Rescue 
Plan went to healthcare. So, nevertheless, and just, again, it 
sounds like we are mortgaging our children's future. I have got 
my grandbabies here this week with me and, you know, I just 
look at them and I think, oh my gosh, what are we doing to you? 
What are we doing to you all? And, you know, this is inner-
generational theft that we are talking about here.
    But nevertheless, another thing I wanted to ask you about 
and I will get to debt in just a minute. But it is very 
important to me because I have been to the border and I have 
seen what has happened down there and it is very, very 
concerning. But as a percentage of GDP, our non-defense--our 
defense spending, I should say, would be reduced to 2.5 
percent. The lowest since World War II. And it would increase 
non-defense spending by 42 percent, this budget would. So, and, 
you know, the focus is shifted from defense spending to things 
like the Green New Deal. And the President's Fiscal Year 2022 
discretionary funding request for national defense is $753 
billion, which that doesn't even keep up with inflation as we 
all know.
    And meanwhile, we have got, you know, a world on fire right 
now. We have got the U.S. world faced growing threats from 
China, from Iran, Russia, and the cyber criminals. And now, 
even the bipartisan National Defense Strategy Commission has 
recommended an annual 3 to 5 percent increase above inflation 
for national defense. Why is the Administration ignoring this? 
Why are they ignoring the growing threats to our country and 
the world, as well as the recommendations of our national 
defense professionals?
    Ms. Young. Thank you, Congressman. One, I think we have to 
assume not just inflation growth but a retooling. The 
Department of Defense has to take the responsibility to make 
sure we are not purchasing outdated equipment that does not 
focus us in the right place to our future adversaries. That is 
one. And two, remind everyone that on this non-defense side 
that is growing, we also have serious security spending. Like 
Homeland Security, like Department of Justice, like our USAID, 
and State Department. So, you know, I appreciate the split 
between defense and non-defense, but we certainly do have 
significant security funding in this non-defense side that is 
growing.
    Mr. Carter. Does the Administration not think that these 
are credible threats that we are seeing? That the U.S. should 
be conceding its world leadership role?
    Ms. Young. We think at $753 billion we have the tools 
available to make sure that we can counter China and any other 
adversary. But we also think we have to have a diplomatic 
budget that keeps up with a complex and changing world and that 
is what you see here.
    Mr. Carter. Ms. Young, let me ask you, unlike our President 
and our Vice President, I have been to the border. And I have 
been to the border recently. And I have seen the humanitarian 
crisis and national security crisis that we have down there. In 
fact, I would venture to say it is more than a crisis. It is a 
disaster. But nevertheless, the President's budget called for a 
freeze on funding for the Department of Homeland Security for 
Fiscal Year 2022. Why is that when we know what is going on at 
the southern border?
    Ms. Young. The President called for an additional $760 
million in facilities to improve our border and migrant 
processing, 203 million more for migrant processing, 200 
million more, almost, for technology. Almost 900 million more 
for immigration judges. So, you know, you are certainly----
    Mr. Carter. I am talking about----
    Ms. Young [continuing]. speaking to the top line with what 
you have----
    Mr. Carter. I am sorry.
    Ms. Young [continuing]. resources that we have devoted to 
this issue.
    Mr. Carter. I don't mean to interrupt you, but I just want 
to know. So, does that send us a message that the 
Administration has no intentions to do anything about securing 
the border? But instead, just wants to spend more money in 
processing the illegals as they come across?
    Ms. Young. With processing comes ability if asylum is not 
proven, that people are returned. So, you absolutely need an 
asylum system. It is the law of the land that we have to 
process people with credible fear seeking asylum. We cannot 
violate the law in that way. So, you must have these pieces to 
ensure that there is a orderly processing, which does turn some 
people back to their country of origin.
    Chairman Yarmuth. The gentleman's time has----
    Mr. Carter. Thank you, Mr. Chairman----
    Chairman Yarmuth. Sure.
    Mr. Carter [continuing]. for the extra time.
    Chairman Yarmuth. Absolutely. The gentleman's time has 
expired. I now recognize the gentlewoman from California, Ms. 
Chu, for five minutes.
    Ms. Chu. Director Young, I would first like to say 
congratulations on your appointment. And I would like to start 
by thanking the Administration for including 12 weeks of paid 
family leave in the budget as the U.S. remains the only 
industrialized country that does not guarantee its citizens 
time off to care for themselves or their loved ones when 
needed.
    And I would like to ask about another topic with respect to 
the Unaccompanied Children's Program. The budget provides 4.3 
billion to the Office of Refugee Resettlement and the 
commitment that services will align with child welfare best 
practices while unaccompanied minors are in ORR's custody. I 
recently visited the emergency shelter at the Pomona Fairplex 
in Los Angeles County and I was encouraged by the 
prioritization of culturally appropriate trauma informed care 
and expedited protocols reunifying children with their 
families.
    And while I am grateful for the swiftness by which the 
Biden Administration has worked to remove children from CBP 
holding cells, we know that massive congregate care facilities 
are not appropriate for prolonged stays for children. So, can 
you discuss the Administration's plans for this $4.3 billion in 
funding? And does it include a long-term plan to collaborate 
with state child welfare authorities and NGO's to allow 
children to stay in small, licensed facilities until they can 
be released to family or sponsors in a timely manner?
    Ms. Young. Congresswoman, our goal will always be to use 
licensed beds. We think it is the more appropriate place and 
better care can be given. It is not as crowded. And also from a 
fiscal standpoint, it is a much more reasonable cost, you know, 
cost consideration. I will say COVID has certainly made it more 
difficult to find licensed beds. We have to spread children out 
further. But I want you to know it is certainly our goal and it 
should be every administration's goal to make sure we are using 
licensed beds for children.
    And certainly, the increase seen is for ORR, but also 
remember that office deals with the other side of refugee 
resettlement. So, there is a funding there also to make sure we 
have improvements to that system. So, it is a much broader set 
of proposals than just unaccompanied children program.
    Ms. Chu. Thank you for that. Director Young, a consistent 
problem throughout the pandemic has been the lack of this 
aggregated data when it comes to Asian-Americans and Pacific 
Islanders or AAPIs. At the beginning of the pandemic, AAPIs 
were even lumped into the other category on the CDC website. 
But from the data we have, we know that Native Hawaiians and 
Pacific Islanders have experienced some of the highest COVID-19 
infection and mortality rates out of any racial group in over a 
dozen states, including my home state of California, where the 
case rate for Pacific Islanders is 31 percent higher than the 
statewide rate.
    Despite guidelines from OMB and provisions of the 
Affordable Care Act that require Asian-Americans and Native 
Hawaiians and other Pacific Islanders to be listed in separate 
categories in federal demographic datasets, the CDC data 
currently lumps Asian-Americans and NHPIs into one category in 
its hospitalization data. But this lack of adequate data goes 
far beyond COVID. It also impacts our ability to understand and 
address broader health, economic, education, and housing 
disparities that AAPIs are facing. Unfortunately, our current 
federal data collecting standards from the Office of Management 
and Budget haven't been updated in over two decades, how is OMB 
working to promote data disaggregation for the AAPI population? 
And are there efforts to ensure that AAPI data disaggregation 
is prioritized across the different departments of the federal 
government?
    Ms. Young. Congresswoman, thank you for your long-standing 
work on this issue. We couldn't agree with you more as an 
administration. If you don't collect the data and know what the 
problem is, you have no chance of fixing it. So, I am glad the 
President took action at the end of May. He signed the 
executive order on advancing equity, justice, and opportunity 
for Asian-Americans and Native Hawaiians and Pacific Islanders.
    The President also established a first of its kind 
Equitable Data Working Group that is led out of the White 
House. It includes data scientists, economists, and experts 
across key agencies. OMB is one of those agencies that will be 
working on this data issue with Census and Treasury and the 
Office of Science and Technology Policy. So, we are trying to 
get there. We are at the beginning stages of righting what you 
pointed out as a significant wrong.
    Ms. Chu. Thank you for that. And also, thank you for the 
President's budget, which calls for the establishment of a 
Civilian Climate Corps, which is a bill that I am introducing. 
Thank you, and I yield back.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from Iowa, Mr. Feenstra, for five 
minutes.
    Mr. Feenstra. Thank you, Mr. Chairman Yarmuth and Ranking 
Member Smith. And thank you Acting Director Young for 
testifying today. I sincerely appreciated the opportunity to 
speak with you last week. As I talked to you about, inflation 
is something that I have really been concerned about since the 
reconciliation bill and what we are seeing today, you know, the 
continued growth of inflation up by about 4.2 percent right 
now. So, I am really nervous about how this is going to affect 
as we move forward. And just talking with key economists and 
working through it myself, this is not a short-term thing. It 
looks like it is going to be a long-term thing.
    Our economists on both sides of the aisle have said that 
the economy is running way too hot due to the massive federal 
intervention. The Federal Reserve has been saying they plan to 
stay out of this at this point. However, they can change their 
minds at any time. I have made this point before, but in 
1980's, right, the Fed decided to change the monetary system 
and increased rates, which created rates of 20 percent 
inflation. If that happened today, we would be paying $4.7 
trillion more in our deficit. Even a small interest rate would 
have devasting effects on our debt and the money we are taking 
in. Can you imagine even a slight increase to our budget?
    The President's budget adds another 17 trillion to the 
national debt, putting the United States at 39 trillion by 
2031. A significant interest rate hike at that time would have 
us spending more on interest than we currently spend on a 
single Fiscal Year budget. That is being generous as this 
budget doesn't assume any inflation.
    But I move on to my question. I just wanted to make this 
point that the numbers that we are talking about are today are 
just completely unreal with it comes to our debt. And I can't 
even say that we are spending monopoly money. You know, if we 
say that, we have outspent that metaphor long ago. So, my 
question is, one thing that I would like to ask is about the 
stepped-up and basis proposal as written in the Department of 
Treasury's Green Book. The tax is effectively a death tax with 
a new coat of paint. The Administration proposes to tax any 
capital gains that is in farm, for example, might accrue above 
a certain exemption. Even with the proposed policy maneuvering, 
the chairman of the House Agriculture Committee, someone who 
generally agrees with the President, and farmers in my district 
agree that this will punish modern farming.
    I also sit on the Science Committee and we are trying to 
incentivize those sorts of modern technology. So, Director 
Young, this is my question, how does the Administration see 
this proposal working without placing a huge burden on our 
farmers when it comes to stepped-up and basis?
    Ms. Young. By providing, Congressman, a exemption for 
family farms. We certainly recognize that in agriculture, there 
are different dynamics. We want to encourage family farms to 
remain in place. So, absolutely those families who want to 
leave the family farm, the house associated with that farm to 
family members, would have an exemption to continue to not pay 
taxes on those as long as it stays a family farm.
    Mr. Feenstra. OK. And I see you are trying to pigeonhole 
the farming community. I completely understand that. But even 
those with small business, I think we have to relook at this 
because you are not always going to say, I mean, if you are 
person that does not have a child, it could be devastating 
effects if you want to give it to somebody else. So, I just 
think that we have to be very cognizant of that.
    Another question. In January, the OMB put out a notice to 
consider changing the definition of metropolitan statistical 
areas. The proposal received almost 900 comments. And I have 
heard from stakeholders all around our state, including Ames, 
Iowa, that such a change would have devastating effects on our 
local resources. My interactions with the Census Bureau have 
given me the understanding that the law that tie resources to 
MSAs are a separate matter than the definition. However, the 
fact remains that any change is going to impact local 
resources. The laws are on the books regardless. Where is the 
OMB on this proposed rule? And what is the rationale behind the 
change?
    Ms. Young. Congressman, the change was proposed the day 
before the last Administration left. But I will say, you know, 
even the timing, even though the last Administration did it on 
the way out the door, it was done by a group of civil servants. 
So, the timing was interesting for a lot of Members on the 
other side of the aisle from you, but we are looking at this. 
We had a public comment period. I have heard more from Members 
on both sides of the aisle on this. We hope that public comment 
review period ends soon and we can make a determination about 
whether to take the civil servants' recommendations on the 
changes. But I hear you and your colleagues have also made it 
clear what a problem this would be.
    Mr. Feenstra. Thank you, and I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlewoman from Virginia, Ms. Wexton, for five 
minutes.
    Ms. Wexton. Thank you, Mr. Chairman. And thank you, 
Director Young, for joining us here today. It is wonderful to 
see you. I cannot think of anybody who would be better suited 
to this role. And I really, I want to associate myself with the 
remarks of my colleagues that I hope that you become the 
permanent director of OMB. And there is so much in this budget 
to celebrate. I want to say thank you very much for the 2.7 
percent pay increase for federal workers, and the parity with 
our service members in the civilian service. You know, our 
federal workers get a bad rap from a lot of folks on the other 
side of the aisle. They think that it plays well back home. But 
they performed amazing service during this pandemic standing up 
programs remotely for things like the Paycheck Protection 
Program and new nutrition programs during the pandemic and 
keeping everything going smoothly. So, I am very pleased that 
you did that and I just want to say thank you.
    Now, I want to take a moment to talk about VOCA, the 
Victims of Crime Act, because that is funded by deposits into 
the Crime Victims Fund. And those deposits are at historic 
lows. They, in fact, haven't been at the reduced levels that 
they are at now since 2003. And I have heard from a number of 
victim services agencies in my district that they are going to 
have to cut services to victims of crime. Things like victims 
of domestic violence, sexual assault, child abuse, and human 
trafficking. So, I just wanted to give you a heads up that that 
is going to happen if we don't do something about this. But I 
understand that your budget includes some wonderful supports 
for those communities. So, can you talk a little bit about how 
your budget seeks to support these populations?
    Ms. Young. As you probably know, President Biden worked on 
these issues as a senator many years ago. So, the commitment in 
this budget is not surprisingly strong. VAWA is increased by 95 
percent. We understand the receipts have gone down and we will 
have to make up for that in budget authority. But it is the 
right thing to do. You have seen increases through this 
pandemic on what people have to face with regard to domestic 
violence. So, a already bad issue has become worse during the 
pandemic. And, you know, we are proud of the resources we put 
forward, and want to work with you and others in Congress to 
make sure, you know, these investments stay there. Awfully 
important, again, especially during this time of the pandemic.
    Ms. Wexton. Yes, that is another thing I have heard from my 
victims services agencies is that they have seen increased 
demand for their services, unfortunately, during the pandemic. 
So, I appreciate the Administration is helping out with that in 
that regard.
    I want to talk a little bit about some of the backlog at 
USCIS. I represent a very diverse district with a big immigrant 
population and the backlogs were already very, very high for 
things like employment authorization and visas and citizenship 
applications, but they have skyrocketed during the COVID-19 
pandemic. How does your budget seek to end the visa backlogs at 
USCIS?
    Ms. Young. As you probably know, USCIS before the pandemic 
was fee-funded. We have during my time in my previous job, we 
tried to put budget authority so additional dollars to support 
the USCIS processing. You know, it will certainly take time to 
work through the issues the pandemic brought to USCIS. But you 
certainly have our commitment to make sure that backlog is 
dealt with. And you are absolutely right, the pandemic not only 
slowed down processing, but really brought their funding source 
to a halt that we had to find ways to work around.
    Ms. Wexton. Great, thank you. Now, gun violence prevention 
is another issue that is really important to my constituents. 
And I see that your budget makes a historic investment of $2.1 
billion to address the gun violence epidemic. Can you speak 
about some of the programs that will be funding by this money?
    Ms. Young. This is a place you heard me talk to Congressman 
Horsford about. We look forward to working with you as we build 
out where we think we get the, you know, the most success from 
investments. But we do think it is appropriate that both the 
justice piece of this and also the health and human services 
pieces of this are funded because it is not just the violence 
side, but what factors create these environments. So, we 
definitely think both sides are needed.
    Ms. Wexton. I am delighted to hear that you want to be 
proactive as well as reactive because for too long we have just 
been reactive. So, that is all of my questions for you right 
now. Thank you so much, and I will yield back.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentleman from Virginia, Mr. Good, for five 
minutes.
    Mr. Good. Thank you, Mr. Chairman. And thank you, Director 
Young, for being with us today. Director Young, in addition to 
the tremendous concerns regarding the recklessly irresponsible 
budget put forth by this Administration from a fiscal 
standpoint, and the demonstrated budgetary incompetence, I have 
great concern for the moral implications contained therein in 
the explicit values or lack thereof regarding life and other 
issues. Mr. Biden has been praised by pro-abortion groups and I 
am concerned that those like Planned Parenthood are now being 
treated as an extension of our federal government. Ms. Young, 
was Planned Parenthood's staff consulted at any point during 
this budget writing process?
    Ms. Young. This budget was written by the Administration 
policy advisors and the staff of the Office of Management and 
Budget and the agencies who help build it.
    Mr. Good. You didn't answer my question. Was Planned 
Parenthood's staff consulted at any point during the budget 
writing process?
    Ms. Young. I certainly did not. Also, thousands of people 
work on the budget, but I certainly did not seek advice from 
Planned Parenthood----
    Mr. Good. What I asked was----
    Ms. Young [continuing]. or any other organization.
    Mr. Good. Was Planned Parenthood consulted at any point 
during the process?
    Ms. Young. I can speak for myself, Congressman. Certainly 
not by me.
    Mr. Good. You have never met with Planned Parenthood during 
your time at OMB?
    Ms. Young. Of course, I meet with Planned Parenthood and 
other organizations, as I think part of my job entails.
    Mr. Good. OK. So, when have you met with Planned Parenthood 
since you got to OMB?
    Ms. Young. I have never----
    Mr. Good. How many times----
    Ms. Young. Yes, I have never met one-on-one with Planned 
Parenthood, but I certainly would not rule out that they 
participated in group meetings with other organizations.
    Mr. Good. Thank you. Planned Parenthood has donated 
millions of dollars to Democrat candidates, including the 
President. Now, that he is elected, it appears that these 
donors, such as Planned Parenthood, are being given seats at 
the table in the policymaking process. Are there other Democrat 
donors to which the Biden Administration plans to direct 
federal funds that the American people should be aware of?
    Ms. Young. Congressman, to the extent organizations receive 
federal funding and also our campaign donors, I cannot speak to 
that.
    Mr. Good. On the subject of values indicated in this budget 
or, again, the lack thereof, do you personally believe that 
abortion is wrong for any reasons under any circumstances or at 
any stages of the unborn child's development?
    Ms. Young. In this job--I appreciate the answer. In this 
job, my personal beliefs have little to do with the budget you 
see put forward before you.
    Mr. Good. So, you won't indicate any time, any reason, any 
circumstance in which abortion, you believe, would be wrong?
    Ms. Young. My personal values have nothing to do with the 
budget. We are here to serve the American people.
    Mr. Good. The science is now clear that life begins at 
conception. When, if ever, do you think we have a 
responsibility as a government to protect that life?
    Ms. Young. Congressman, to the extent this has anything to 
do with the budget, I just don't have a personal opinion.
    Mr. Good. Well, this is the most anti-life budget in 
American history. It is actually good to hear you say the word 
abortion because our President's been in office now for 140 
days. Neither he nor his press secretary have used the term 
abortion yet, which demonstrates the callousness they have to 
the 70 million lives who have been lost through this travesty 
of abortion. And which, in fact, has disproportionately 
impacted or devastated the minority community. I think the 
President is probably uncomfortable with his political 
compromise on the issue. There was a time when he would 
actually stand up for unborn life. But now he has caved to the 
anti-life commitment of his party.
    The President's budget tragically calls for the removal of 
the Hyde Amendment, a policy that has been in place for nearly 
50 years. And his Administration is now on record opposing 
Hyde, which protects American taxpayer dollars from funding the 
murder of unborn lives. That is why abortion views are relevant 
to this budget discussion. Ms. Young, will you continue to 
enforce the Hyde Amendment if, in fact, it is included in this 
year's appropriation bills?
    Ms. Young. It is currently the law of the land. I commit to 
following the law of the land. If it is continued and this 
proposal is----
    Mr. Good. Thank you for that.
    Ms. Young. Yes.
    Mr. Good. Thank you, thank you. This budget also calls for 
the removal of the Dornan Amendment, which prohibits taxpayer 
funding as you know for abortions in D.C. Do you support the 
American taxpayer dollars being used to fund abortions here the 
Nation's Capital?
    Ms. Young. Congressman, my personal beliefs have nothing to 
do with the budget.
    Mr. Good. You know, as Vice President, Mr. Biden said, hey, 
show me your budget, I will show you your values. I am saddened 
by what this budget says about the values or lack thereof that 
our government now promotes. And I am right on time, so I yield 
back. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentlewoman from Washington, Ms. Jayapal, for 
five minutes.
    Ms. Jayapal. Thank you, Mr. Chairman, and Director Young, 
Acting Director Young. Thank you so much for being with us 
today. I wish my Republican colleagues cared as much about life 
when it comes to supporting things like childcare, things like 
ending poverty, things like ending hunger. Those are also part 
of ensuring that we support life. So, thank you, Director 
Young, for all of your testimony today and all of the work that 
you have been doing across the board for the American people.
    I wanted to say that this budget is largely a bold and 
progressive budget that recognizes that we need those once-in-
a-generation investments in education, childcare, healthcare, 
infrastructure, and so much more, along with making fair a 
ridiculously unfair tax system where the wealthiest 
millionaires and billionaires never pay their fair share. But I 
do want to focus today on two issues. One, where I greatly 
agree with the President and one where I do not.
    The COVID-19 pandemic made clear that we must deliver a 
healthcare system that works for the American people and isn't 
tethered to employment. I am grateful that this budget reflects 
commitments laid out in the Biden-Sanders Unity Task Force that 
I co-chaired and reflected in a letter that I led with over 75 
percent of the Democratic Caucus across the ideological 
spectrum who understand how critical it is to empower Medicare 
to negotiate drug prices, improve Medicare benefits to include 
dental, vision, and hearing, and expand Medicare eligibility to 
60. Director Young, please speak to President Biden's 
commitment that Congress should act swiftly to include in the 
American Jobs and Families Plan these critical issues.
    Ms. Young. Congresswoman, one, thank you for everything you 
have done around the issue of healthcare. The budget is very 
clear. The President wants to see action, bold action on 
prescription drug prices. There is a fundamental problem with 
Americans, not only through their tax dollars with the Medicare 
program paying too much for drugs in this country. So, we asked 
Congress to work this year to bring those costs down. We think 
that will save at least $.5 trillion. We also want to see 
action to make sure that all Americans have access to 
affordable healthcare that includes through Medicare, Medicaid, 
ensuring we have additional dental, vision, and hearing 
services. But also strengthening the Affordable Care Act, which 
has already brought millions and millions healthcare at an 
affordable rate.
    Ms. Jayapal. Thank you, Director. Shifting gears, in 2010, 
then Vice President Biden said this, ``The spread of nuclear 
weapons is the greatest threat facing the country and humanity, 
and that is why we are working both to stop their proliferation 
and eventually eliminate them.'' Yet, the President's budget 
expands almost every nuclear program proposed by the previous 
Administration. It funds the new nuclear arms sea-launched 
cruise missile, a weapon that President Obama retired with the 
full support of the navy that then Trump sought to restart and 
now this budget gives it its first funding. Is that correct?
    Ms. Young. Yes. But I also want to assure----
    Ms. Jayapal. And----
    Ms. Young [continuing]. assure you we are at the beginning 
of a process where we are undertaking our nuclear posture 
review.
    Ms. Jayapal. That review is very, very important. As you 
know, just last August, President Biden pledged to bring us 
closer to a world without nuclear weapons--this is a quote of 
his--so that the horrors of Hiroshima and Nagasaki are never 
repeated. And yet, this budget again extends the life of the 
massively destructive B83 nuclear gravity bomb, which has a 
yield that is 100 times larger than the bomb dropped on 
Hiroshima. Moreover, the budget increases funding for the long-
range standoff nuclear armed air launched cruise missile to a 
level far beyond what the previous Administration's budget 
suggested would be required. Can you speak to how quickly the 
nuclear posture review will be done? And be clear about whether 
this budget will incorporate whatever that review comes up 
with.
    Ms. Young. Congresswoman, one, I want to let you know the 
President remains committed to taking steps to reduce the role 
of nuclear weapons in our national security strategy. So, we 
await the results of those reviews. But even with the reviews, 
you know, the President will make a informed decision on how we 
proceed and they will absolutely be reflected in future budget 
requests. So, you see a continuation of a program, but 
certainly subject to what those reviews will yield out and the 
President will use those reviews to make future decisions.
    Ms. Jayapal. Thank you so much, Director Young. You know 
how important this is to me as well as cutting overall fraud, 
waste, and abuse out of defense spending. And I hope we can get 
there. I thank you so much for your service and for all that I 
know you will do for our nation.
    Chairman Yarmuth. The gentlewoman's time has expired. I now 
recognize the gentlewoman from Iowa, Mrs. Hinson, for five 
minutes.
    Mrs. Hinson. Thank you, Mr. Chairman, for holding this 
hearing today. And thank you, Director Young as well, for 
appearing before us today and for our candid conversation as 
well last week about the whole budget process and some of our 
shared concerns about inflation, economic stability, and more. 
I am particularly concerned about the cost of living for the 
average Iowan. We have heard a lot of talk today about 
inflation. Just this week a standard 2X4 of lumber at our 
Waterloo Home Depot was up to $8.25. That is a nearly 60 
percent increase. And that is just one area where we have seen 
a dramatic increase in inflation. So, I hope to continue our 
conversations about how we can truly address this issue.
    But I would like to spend my limited time today on a few 
other issues important to my constituents. President Biden has 
previously expressed strong support for the Hyde Amendment 
prohibiting taxpayer dollars from directly funding abortions of 
unborn children. He, in fact, wrote to a constituent saying 
those of us who oppose abortion should not be compelled to pay 
for them. But, frankly, when we are talking about so much 
spending, so much debt, and given that so many Americans are 
morally opposed to abortion, why does the President's budget 
proposal fail to safeguard taxpayers against paying for 
abortions both here at home and abroad?
    Ms. Young. Congresswoman, for the President this is 
consistent with his campaign commitment around Hyde. This 
should not be a surprise to anyone who watched the Presidential 
elections that the President made a campaign commitment 
regarding Hyde because is it a issue for him around healthcare. 
And he wants to ensure that women have the access to affordable 
healthcare and it purely comes down to that.
    Mrs. Hinson. Access to healthcare is one thing, abortion is 
not healthcare. Who made the decision to revoke longstanding 
pro-life protections in this budget? Why were the policies 
removed? Was that a direct order from President Biden?
    Ms. Young. Congresswoman, his name is on the budget. This 
is the President's budget.
    Mrs. Hinson. OK. Thank you. I want to now reference 
something that my colleague from Iowa, Congressman Feenstra, 
brought up in his line of questions. The city of Dubuque in 
Iowa's first congressional district is a thriving community 
that has led the way in innovation when it comes to sustainable 
transportation, city planning, and work force development. And 
the proposal by OMB to change that definition of MSA threatens 
Dubuque's access to certain critical resources, including 
federal dollars for healthcare providers and more. That 
definition change proposal would dramatically increase the 
population that is required to qualify as an MSA. It would 
severely change access to federal dollars affecting the 
abilities of our cities to innovate and attract investments in 
mobile economies.
    One example, I specifically heard from Unity Point 
Healthcare on this, it mentions potentially massive impact on 
their ability to provide care to Dubuquers. And I know you 
mentioned you have had conversations with folks on this. My 
office has reached out, of course, regarding this 
classification. And it does remain a very important issue to my 
constituents. Right now, I understand that the definition 
change is currently in kind of a black box period of review. 
Can you share with us why this process is not transparent and 
it is lacking in input for community input and commentary? We 
are missing out on that opportunity. Can you kind of expound on 
that a little bit?
    Ms. Young. Well, we just concluded a public comment period. 
So, you know, all the comment periods are announced in the 
Federal Register. I am sorry if your community missed the 
chance to comment. But we certainly did. The reason we have not 
made a final determination on this is because we did not want 
to skimp on a public comment period. So, that is certainly what 
we were waiting on. And I await for the staff to bring an 
analysis of what those public comments brought to bear before 
we make a final determination.
    Mrs. Hinson. And will you commit to working with our office 
to ensure that everyone does have their voices heard before the 
final decision is made and just keep us up to date on that 
process as it continues to move forward? People are very 
concerned about this, not just in Dubuque, but also in Ames, as 
Congressman Feenstra mentioned.
    Ms. Young. Yes, Congresswoman, to the extent, you know, we 
try to have a open public comment period, but we do want to, we 
have to, to make sure people know that we are not bringing 
inside information. So, we did have a public comment period. 
And as soon as we can analyze that data and make an informed 
decision based on the public comments, we will certainly let 
offices who are interested in this know where we land. And 
again, this issue shows bipartisanship is alive. I have heard 
from Members on both sides of the aisle. So, we did----
    Mrs. Hinson. And thank you, Director Young. I appreciate 
your willingness to work with us on these issues and, Mr. 
Chair, thank you so much. I yield back.
    Chairman Yarmuth. The gentlewoman yields back. I now 
recognize the gentlewoman from Texas, Ms. Jackson Lee, for five 
minutes.
    Ms. Jackson Lee. Am I on?
    Chairman Yarmuth. You are on.
    Ms. Jackson Lee. Hello? Hello?
    Chairman Yarmuth. You are recognized. You are on.
    Ms. Jackson Lee. Thank you so very much. It looks like I 
have a few seconds here into the sound. Thank you so very much, 
Mr. Chairman, and the Ranking Member, and to Ms. Young for the 
time that you have spent with us today. Let me emphasize my 
commitment to the mindset of the President. I believe we should 
go big. And, frankly, I believe that the President--I just got 
through with an Appropriations Committee presentation listening 
to members explaining the various needs that members have in 
their respective districts. We are long overdue for a rebuild 
in our country. We cannot go small. We have to go big. And I 
happen to support the $2.2 trillion program that I frankly 
believe we should go back to. And the reason is because it is 
partly a rebuild of this nation that has not had this 
opportunity for a long period of time.
    So, let me first of all raise a question to you with 
respect to the contentious formula for how one should pay for 
this. My question is, could you tell us what the corporate tax 
was in the pre-Trump tax era?
    Ms. Young. Ma'am, this policy would take us not all the way 
back to the pre-TCJA tax cut period. We would be moving from 21 
to 28 percent under this proposal. I believe the pre-TCJA rate 
was 35 percent, which I am getting a lot of nods, yes. So, we 
are going from 21 to 28. The rate before the tax cuts was 35.
    Ms. Jackson Lee. So, let me put a stamp of reasonableness 
on that decision. A stamp of reasonableness on that decision in 
the light of what the $2.2 trillion would do. Build world class 
transportation, make transformative investments in the renewed 
electric grid, ensures high speed broadband, improve public 
health, deals with research and development, revitalize 
American manufacturing, retrofits, and then, of course, there 
was the community care. Ms. Young, was this budget put together 
randomly? Or was your agency, OMB, able to assess the desperate 
need of Americans and evidenced by the collapse of the electric 
grid in Texas where 100 people died? The crumbling bridges, 
which I have seen as the Secretary of Transportation made his 
tour around America. Did you all do a deep dive on the 
desperate needs of Americans as it relates to the putting 
together of this budget?
    Ms. Young. Congresswoman, these ideas aren't new. We talked 
and joked a little about infrastructure weeks. But these aren't 
new ideas. We had lots to pull from because of the long-term 
underinvestment here. You know, I get the opposition to the 
overall issues, but there is a lot of bipartisan ideas 
reflected here because these ideas have percolated in Congress 
and various administrations for a long time.
    Ms. Jackson Lee. So, you had evidence thereof. Let me move 
quickly to the question of recognizing the increasing hate 
crimes, the increasing violence with guns. So, is the budget in 
such a way that we can enhance the protection of American civil 
rights that we can ensure a stronger Department of Justice to 
protect against gun trafficking and issues such as that. 
Meaning, have the agencies had the opportunity, plussed up, 
ultimately appropriations deals with that, but plussed up on 
some of these very vital issues, societal issues that we are 
suffering in America right now.
    Ms. Young. We have talked a lot. So, I won't go into detail 
about the Community Violence Initiatives that are very 
important with regard to that. Also, on the discretionary side, 
the budget makes $209 million investments at DOJ that protect 
marginalized communities, a $33 million or 19 percent increase 
above last year with regard to a civil rights enforcement.
    Ms. Jackson Lee. And so, I see the Administration is 
engaged in a lot of negotiations. As I indicated earlier, I am 
glad they dropped the previous one that seemed to be very 
narrow. The idea of bipartisanship, I understand, still is part 
of the mindset of our President. However, I just want to make 
sure that our budget continues to emphasize eliminating poverty 
and boosting communities that have long since suffered from 
lack of attention. Is that one of the policy elements of your 
budget at this time along with racial equity?
    Ms. Young. Yes, including actions outside the budget 
including the President signing of executive order on racial 
equity and equity issues writ large.
    Chairman Yarmuth. The gentlewoman's time has expired. Thank 
you.
    Ms. Jackson Lee. I thought I had a few seconds. Thank you.
    Chairman Yarmuth. No, I gave you a few extra seconds.
    Ms. Jackson Lee. Thank you.
    Chairman Yarmuth. I now recognize the gentleman from 
California, Mr. Obernolte, for five minutes.
    Mr. Obernolte. Thank you, Mr. Chairman. And, Ms. Young, 
thank you for your testimony today. Also, thank you for the 
discussion last week. I know I speak for my colleagues when I 
say that your willingness to engage with us really indicates 
that both for you and for the Administration, that you view the 
budget as a collaborative process with Congress. And that is 
something that we certainly agree with you on.
    I would like to start by continuing a line of questioning 
from Congressman Smucker. He was asking you about the budget's 
commitment to reducing the federal deficit. And you said that 
the commitment is reflected in the fact that all of the 
spending increases were paid for by tax increases corresponding 
to them. However, the budget projections in the out years still 
have the deficit increasing instead of decreasing. So, what is 
the budget's plan for getting the deficit under control?
    Ms. Young. So, Congressman, I want to make sure we are--you 
are not speaking apples to apples. So, yes, we started to see 
annual deficit reductions in 2030 of $40 billion. And in the 
second decade, a total of $2 trillion in deficit reduction. I 
think you might also be referring to overall GDP numbers, which 
do rise, but flatten out in out years.
    Mr. Obernolte. OK. I am just looking at your--this is your 
budget summary under deficit. In 2029, it is $1.3 trillion, 
2030, at $1.48 trillion, and 2031, $1.57 trillion. So, that 
just tells me that we are moving in the wrong direction rather 
than the right direction in getting the deficit under control. 
Do you not agree?
    Ms. Young. Annual deficits start to show negative effects 
in 2030 in our budget. We can certainly work with you to figure 
out the discrepancy. But by 2030, we see $40 billion in annual 
deficit savings.
    Mr. Obernolte. OK. Let's work, because, I mean, that is not 
what I am seeing in your budget summary. And the reason it is 
important to me is that according to the Congressional Budget 
Office, when GDP--when the federal debt reaches 200 percent of 
GDP, that is going to represent an annual income loss to the 
average American of over $9,000. So, that is something that is 
obviously not desirable. And I hope everyone would have a 
commitment to getting that under control.
    I would also like to talk about something that Congressman 
Smucker asked you about regarding interest rates. And I know 
Congressman Feenstra had a concern about this as well. You had 
said in your presentation that declining interest rates give us 
the fiscal space to make these investments. But then when you 
were responding to Congressman Smucker, you said this budget 
assumes that interest rate increases in out years. So, I found 
that confusing. And particularly in light of the fact that the 
last time we saw this uptick in inflation was about 40 years 
ago. And the result of that was that the interest rate on 
government debt surpassed 10 percent. So, you know, how do you 
reconcile that? What interest rate assumptions have you made in 
this budget? And what would the effect be of interest rates 
going to above 10 percent for government debt?
    Ms. Young. Sir, we don't see indicators that interest rates 
will rise to the levels you speak of. My intention in telling 
you what we built our economic assumptions around were that we 
were trying to be responsive and set reasonable. I think OMBs 
in the past, have been criticized for making too optimistic of 
assumptions. We tried a reasonable approach here where we did 
show some interest rate growth, but it still remained very low 
based on historical averages. And we still believe even with 
that reasonable projection, gives us the fiscal space given the 
historical lowness of where we are with interest rates. And we 
don't see long-term indicators that we are going to reach rates 
nearly as close to what you are mentioning.
    Mr. Obernolte. OK. Well, I think we all join you in hoping 
that that is the truth. That that remains to be seen whether 
interest rates are actually going to increase again. It would 
be terrible for our country and for our government and for this 
budget should that occur.
    And my last question. Something that you said in your 
opening really interested me. You said that this budget ensures 
that wealthy Americans pay their fair share. So, I just want to 
clarify. Does that mean that if Congress would enact this 
budget exactly as written, that wealthy Americans would be 
paying their fair share?
    Ms. Young. Sir, we think this is a start to ensure that the 
wealthiest Americans pay as a percentage of what they make 
closer to what regular Americans, our nurses and postal workers 
and others that kept this place going during the pandemic, for 
example, the rates that they pay compared to what their 
salaries, their income brings in.
    Mr. Obernolte. OK. So, just to be clear. Even if all of 
these tax increases were enacted, you are saying wealthy 
Americans wouldn't be paying their fair share.
    Ms. Young. What I am saying is this does bring a more 
equitable system and also helps us pay for the fiscal policies 
we presented here.
    Mr. Obernolte. I will take that as a yes. Mr. Chairman, I 
yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Massachusetts, Mr. Moulton, for 
five minutes.
    Mr. Moulton. Thank you, Mr. Chairman. Acting Director 
Young, thank you so much for being here today, and for staying 
to end. We very much appreciate your testimony. And I want to 
thank you and President Biden for the investment in rail in the 
Fiscal Year 2022 budget. I would like to focus on that and on 
transportation because it is such a central part of the 
President's economic plan, his Jobs Plan. And, of course, we 
know that transportation is the leading contributor to climate 
change in the United States. The greatest contributor of carbon 
emissions. And so, I would like to just ask a few questions 
about that.
    Obviously, rebuilding infrastructure is central to growing 
the economy, but because this is the Budget Committee and let's 
just focus on those economics and not just on the climate 
change benefits. I assume it is the position of the 
Administration to choose projects that have high, not low, ROI, 
return on investment. Is that correct?
    Ms. Young. That makes the most sense and it ensures that 
our federal dollars go further. So, absolutely.
    Mr. Moulton. Exactly. And it is something, it is a point 
that I think my Republican colleagues fully agree with. They 
want to see a good return on investment of American taxpayer 
dollars as do Democrats on the Committee.
    Now, high speed rail has one of the highest ROIs in the 
transportation world. And that is why countries like Morocco, 
Morocco has .5 percent of our GDP, and yet, they are investing 
in high-speed rail. And I emphasize, they are not investing in 
the slow excuse for high-speed rail that we are used to riding 
on in the Northeast Corridor. They are investing in true modern 
high-speed rail, 200 mile per hour trains because the ROI of 
these projects is so high. China is doing the same thing. They 
have invested so much in high-speed rail that they in just 12 
years have built the largest high-speed rail network in the 
entire world.
    In the Pacific Northwest, Microsoft in the states of 
Washington and Oregon recently commissioned a study that showed 
that making a investment of about $40 billion in high-speed 
rail to connect Portland and Eugene, Oregon with Seattle and 
Vancouver would create about $355 billion in economic benefits, 
in economic returns for the project. So, it is quite 
significant. I also assume that given the title of the 
President's economic plan, the Administration cares a lot about 
jobs. Is that correct?
    Ms. Young. Good paying jobs.
    Mr. Moulton. Good paying jobs. And high-speed rail creates 
nearly twice as many good paying jobs per billion dollars 
invested as highway and transit projects. About 24,000 versus 
13,000, according to a recent study. I would hasten to add that 
subsidizing electric vehicles, which is also a big part of the 
plan, actually reduces jobs. Most EV factories are highly 
automated, taking jobs away from auto plants around the country 
and giving them to robots. Now, I am not opposed to EVs. I am 
not even opposed to subsidizing them because of the climate 
change benefits. But they are not going to have a positive 
impact on jobs.
    Now, I also believe the Administration cares about reducing 
congestion. We pay about $166 billion in congestion prices, 
congestion costs every single year. Is that correct?
    Ms. Young. Correct, especially when you look at lost 
productivity.
    Mr. Moulton. Right. And so, the FAST Act of 2015, which is 
the most recent major surface transportation law, authorized 
about $45 billion annually for the Federal Highway Program. But 
with induced demand, congestion is only getting worse. In fact, 
highway capital projects in urban areas cost $500 billion to 
states between 1993 and 2017. And congestion grew by more than 
144 percent. That is much faster than population growth. Look, 
I am all for electric vehicles, but if all they are going to do 
is produce silent traffic jams, that is not going to improve 
congestion, is it?
    Ms. Young. We certainly think you have to look at EVs from 
the climate standpoint. And, you know, for the foreseeable 
future, people are going to be driving. So, that is a 
substantial view as to why we need to invest in EVs.
    Mr. Moulton. A lot of people will be driving because they 
don't have the alternative. They don't have an option. We don't 
have high-speed rail at all in America. It is an option in 
almost every other developed country in the world. So, I would 
encourage you to make sure that truly transformative 
investments in transportation are part of this plan. We want to 
recognize those economic benefits. That $355 billion that comes 
from a mere $40 billion investment in the Pacific Northwest, 
compared that to adding one lane to I-5 in either direction, it 
costs twice as much. And there are no economic benefits from 
that because travel times don't improve. So, rather than just 
silent traffic jams, let's invest in the future of 
transportation. Thank you, Mr. Chairman. I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognized the gentleman from Florida, Mr. Donalds, for five 
minutes.
    Mr. Donalds. Thank you, Mr. Chairman. Director Young, I 
actually want to pick up where Mr. Obernolte of California left 
off. He talked about essentially this is the starting point of 
your tax proposal to make sure the tax system is equitable. If 
this is your starting point, what is the finish line?
    Ms. Young. Frankly, sir, the tax proposal in itself we 
think is a necessary step for reform for fairness. But it is 
also a tool to ensure that we have some fiscal discipline and 
fully offset the proposals we put forward. So, we have to----
    Mr. Donalds. Yes, but Director Young, I----
    Ms. Young [continuing]. look at revenues we need.
    Mr. Donalds. Director Young, hold on. I am going to reclaim 
my time a little bit. I have heard that explanation throughout 
this hearing. I am asking you specifically, if this is the 
start in the mind of yourself or the Administration, what is 
the finish line? Where are we going when it comes to tax 
policy?
    Ms. Young. Congressman, this is the policy on the table. 
And we would ask you to take close consideration.
    Mr. Donalds. All right. Real quick, let me ask you a 
question. If the desire of the Administration in part is to 
make sure that all Americans are paying the same percentage of 
their income, incomes taxes, would the Administration support a 
flat tax?
    Ms. Young. Congressman, the policy is in front of us. It 
ensures that the wealthiest amongst us begin to pay a fair 
share compared to regular Americans----
    Mr. Donalds. Hold on I want to----
    Ms. Young [continuing]. people who are----
    Mr. Donalds. Hold on I want to reclaim my time. Because if 
you say fair, that means the same percentage. So, would the 
Administration support a flat tax?
    Ms. Young. You have our proposal in front of us, which is 
not a flat tax.
    Mr. Donalds. OK. I am going to move on to somewhere else 
because I do want to get to issues associated with the border. 
You said earlier in your testimony, in part, we are talking 
about border security and what the budget speaks to about 
border security, that walls don't work, essentially. When you 
guys were crafting this budget, did you actually have 
consultation with members of border security--border patrol--
excuse me?
    Ms. Young. Of course we talked to the Department of 
Homeland Security.
    Mr. Donalds. But did you talk with members that actually 
worked border facilities on the southern border? Did you talk 
to them? Did you consult with them?
    Ms. Young. We talked to the Department of Homeland 
Security, which can speak to all issues, and that includes CBP.
    Mr. Donalds. OK. Quick question for you. Currently, there 
is a contract to finish completion of sections of our southern 
border that the Biden Administration has halted. Are the 
contractors who had contracts signed with the federal 
government are they currently being paid simply not to build 
the border wall they were contracted to build?
    Ms. Young. Congressman, when the President turned off the 
inappropriate national emergency, what that did was allow us to 
return funding back to the Department of Defense. So, those 
contractors' paid with Department of Defense money, they----
    Mr. Donalds. Director Young----
    Ms. Young [continuing]. did not continue.
    Mr. Donalds [continuing]. are the--Director Young, I am 
going to reclaim my time. Are the contractors being paid?
    Ms. Young. We have turned that off. Most of them, I think 
you are referring to were paid with Department of Defense 
money, which we found inappropriate and we stopped those 
contracts.
    Mr. Donalds. So, they are not being paid at all. Is that 
your answer?
    Ms. Young. They are not being paid.
    Mr. Donalds. OK.
    Ms. Young. Not--Department----
    Mr. Donalds. Quick question for you.
    Ms. Young [continuing]. of Defense contractors are not 
being paid.
    Mr. Donalds. Quick question for you. I have a question for 
you here. You know, I assume, like everybody else, your house 
has walls. I mean, that is just a gross assumption, but it is 
one that, you know, for the purpose of this exercise. If the 
contractor that built your home didn't build one of the walls, 
would the walls in your home actually serve the purpose? If one 
of the walls weren't constructed, would the walls in your home 
serve a purpose? Would it contain heat, air conditioning? Would 
it keep people in and out? Would it serve its purpose?
    Ms. Young. I think we are trying to compare home walls to 
walls along a complex border. I certainly see where we are 
going. I don't see how those things are comparable.
    Mr. Donalds. Director Young, have you, yourself, actually 
been to the border to see the border wall with your own eyes?
    Ms. Young. I have.
    Mr. Donalds. You have seen it. I have seen it. You do 
realize that are holes in the wall on the southern border that 
have not been completed by previous iterations of Congress?
    Ms. Young. I realize that there was a bipartisan opposition 
against taking Department of Defense funding to complete 
sections of a wall that had dubious merits to begin with.
    Mr. Donalds. I guess, Director, here is what I am trying to 
understand. How can the border wall actually work if Congress 
refuses or the Administration pulls back contracts to actually 
complete the wall? That would be similar to the contractor, you 
know, building, frankly, the entire wall for a home, but not 
putting in the windows. Wouldn't you agree?
    Ms. Young. It was also important to put in windows in 
wellness facilities and other things. The last Administration 
stole to fund the border wall. We put it back.
    Mr. Donalds. Last question for your, Director. Are you 
aware that border patrol has informed people on the southern 
border that the aerostat balloons and bridge cameras are being 
removed because they say it cost too much money?
    Ms. Young. I have not heard that.
    Chairman Yarmuth. The gentleman's time----
    Mr. Donalds. I am done with my time. I yield back.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from New York, Mr. Morelle, for five 
minutes. You need to unmute, Mr. Morelle.
    Mr. Morelle. Yes, sorry. This is my first Zoom session. I 
apologize. First of all, Mr. Chairman, thanks for holding this 
important hearing to discuss the President's budget and I 
certainly want to echo the comments of many of my colleagues in 
offering a thank you to Acting Director Young for your service 
to the country in the past and for your continued service in 
this role.
    The budget calls for major investments in childcare, which 
would significantly solve the affordability problem that most 
families with young children experience. As you know, Director 
Young, there is an unprecedented number of women, particularly 
mothers, had to drop out of the labor force because of the 
pandemic. So, could you just detail a little bit how the 
childcare proposal in this budget will help us to reverse that 
trend?
    Ms. Young. Absolutely, sir. As we have talked about a 
little today, this budget assumes that working mothers, working 
fathers, need safe and affordable places to send their children 
to make sure that those same children have food on the table 
and roofs over their head. So, this is a necessary investment, 
long overdue. And this is exactly what we are talking about 
about not just getting back to pre-pandemic, but building back 
better in investments that have been sorely lacking. And if we 
do this right, we will see economic growth because people can 
be assured that their families are taken care of.
    Mr. Morelle. And this is particularly true at the lower 
ends of the economic scale. So, this is really allowing 
everyone to participate in what we certainly hope, I think, all 
of us, an expanded economy.
    The budget proposes 7.4 billion for the Childcare and 
Development Block Grant, which I believe is about a $1.5 
billion increase over the previous fiscal year. Can you just 
give me a sense of how you expect to invest in these areas with 
the new dollars surrounding childcare, what the plan is for 
doing that?
    Ms. Young. You know, I think if you talk to people who have 
worked on this a long time, they would say the $1.5 billion is 
long overdue. So, you know, it will certainly go to places that 
we have underinvested in and not provided enough federal 
assistance for years. But also, that is one part of the 
childcare budget, that is the discretionary side, also making 
large investments in the American Families Plan. But the annual 
budget is important to make sure we get that baseline up and 
ensure annual continuation as the Families Plan phases out in 
the long run.
    Mr. Morelle. Very good. I know the President has also made 
clear his commitment to advance racial equity through a whole 
of government approach. And in particular, forums that would 
address the disparate experiences and outcomes of families of 
color in the child welfare system. Can you just talk a little 
bit about how this budget helps us meet the goal of improving 
those outcomes?
    Ms. Young. One, the big thing is it is not just he budget 
document. But the President's executive order calls for the 
government to look writ large at all of its programs and 
including how we implement programs. So, not just new spending, 
but retool the way we approach and make sure we are bringing 
services to all American people and really looking at 
communities that, you know, or have historically been left 
behind in this economy.
    Mr. Morelle. Well, I appreciate that. I am also 
enthusiastic about what, frankly, what the Congress and what 
the Administration have done to significantly reduce child 
poverty. My area of Rochester, New York, we have the second 
highest child poverty rates in America. Experts estimate the 
tax credits and other relief for families enacted in the 
American Rescue Plan would cut child poverty by more than half. 
Can you tell us what kind of impact the expanded child tax 
credits would have on American families in our economy and 
about efforts to make this permanent?
    Ms. Young. Absolutely. We have a 5-year expansion of the 
child tax credit as part of the American Families Plan. We do 
believe that the reduction in child poverty, you have mentioned 
half of child poverty just with the expansion of the Rescue 
Plan, we consider the Families Plan an improvement on that. And 
we know a lot of members want to see a permanent change there 
and certainly we want to work with you as you work on options 
to do that.
    Mr. Morelle. Very good. Just two closing comments if I can 
in my remaining few seconds. First of all, thanks. You have 
been very available to Members of this Committee and Members of 
Congress. I think that is something we are all very, very 
grateful for. It helps us really dive deeply into this.
    And the last thing I would say is the reason I focus on 
child poverty and daycare is, if we want to expand the economy 
for everyone, we have to make these investments. And I am 
pleased that you and the Administration will do that. And with 
that, Mr. Chairman, I yield back my time.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield myself a few minutes. I am going to get you out of here 
relatively quickly. And I thank you so much for your patience 
and your willingness to stay. I always reserve my time until 
the end so it gives Members a few more minutes to get to 
something else and also, I get to have the last word, which is 
always a nice thing.
    First thing I will say is if anyone had any question about 
whether you were the right person for the permanent director's 
job, I would think after this appearance they couldn't possibly 
have. So, I wish you the best of luck with that. You have my 
strong endorsement.
    Second, about two years ago, I spoke to the rotary club in 
Louisville, and the theme of my speech was there were three 
things that I thought we had to start doing immediately and 
totally emphasize if we were going to have a viable future. One 
was deal with climate change. This budget does that. One was to 
concentrate on early childhood education. This budget does 
that. And the third was try to figure out how we are going to 
handle artificial intelligence. And with the research 
commitment that is made in this budget, I suspect that that 
will be achieved as well. In terms of making the decisions for 
the future, I think this budget deserves a great deal of 
commendation.
    Finally, I am going to give a quick speech that I give all 
the time when people worry about debt. And I will ask you agree 
or not agree. We have been accumulating debt in this country 
for 230 some odd years. Has anybody ever been asked to pay off 
their share of the debt?
    Ms. Young. No, Mr. Chairman.
    Chairman Yarmuth. Is there any likelihood that that would 
happen?
    Ms. Young. No, Mr. Chairman.
    Chairman Yarmuth. And there is a book out now called The 
Deficit Myth by an economist, Dr. Stephanie Kelton. And when 
she talks about the debt, she says you shouldn't think of it 
the debt, the national debt. You should think about that as the 
total investment that the federal government has made in the 
United States people, the population, over the history of the 
country, minus taxes. Does that seem like a fair 
characterization of debt to you?
    Ms. Young. It seems fair and I will add if we are concerned 
about the debt when it comes to investments, we have to be 
concerned about it when it comes to consideration of tax cuts.
    Chairman Yarmuth. Absolutely. And then just to deal for an 
instant with the question of inflation. We saw, as many of my 
colleagues from the other side mentioned, a relatively high 
monthly rate of inflation. Part of it as I recall is that I 
think one estimate was 1/3 of that was the increase in the 
price of rental cars because last year there was no business 
for the rental car companies. They had to sell all of their 
vehicles and now they have to rebuy them. So, certainly, not 
something that would be expected to recur, is it?
    Ms. Young. That is true. That is one of the things we saw. 
And just one of those interesting things after coming out of a 
once-in-a-generation pandemic, you were surprised to see, but 
it is not surprising that we see come quirks coming out of the 
pandemic. And we think a lot of this is base effects from that.
    Chairman Yarmuth. Lumber would be another example of that. 
The lumber mills expected a steep drop in demand so they 
stopped producing and then turned out that everybody decided 
they wanted to spend more on their house and the price went way 
up. And but over the last 10 days or so, the price of lumber 
has dropped 30 percent. So, these things do level out.
    And finally on inflation, the percentage increase has a lot 
to do with what you are comparing it to. This was the second 
month, basically, of shut down of a year ago. So, you would 
naturally expect as we come out of a pandemic that the 
percentage increase based on a depressed level of activity and 
pricing a year ago would be higher than normal. Is that not 
correct?
    Ms. Young. Yes, and that is what I mean when we have to 
look at base effects. What are we comparing it to? And last 
year absolutely had, you know, pandemic depressed prices.
    Chairman Yarmuth. Well, once again, I want to thank you for 
your responses and your knowledge and the work you have done on 
this budget. And I look forward to working with you to get this 
implemented for the benefits of the American people. Thank you 
very much for being with us today. And if there is no further 
business, without objection, this hearing is adjourned.
    Ms. Young. Thank you, Mr. Chairman.
    [Whereupon, at 2:13 p.m., the Committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                        [all]
</pre></body></html>
